<html>
<title> - OVERTURNING 30 YEARS OF PRECEDENT: IS THE ADMINISTRATION IGNORING THE DANGERS OF TRAINING LIBYAN PILOTS AND NUCLEAR SCIENTISTS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                   OVERTURNING 30 YEARS OF PRECEDENT:
                   IS THE ADMINISTRATION IGNORING THE
                   DANGERS OF TRAINING LIBYAN PILOTS
                        AND NUCLEAR SCIENTISTS?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                                AND THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                       COMMITTEE ON OVERSIGHT AND
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014

                               __________

                           Serial No. 113-72

                      (Committee on the Judiciary)

                               __________

                           Serial No. 113-96

             (Committee on Oversight and Government Reform)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.fdsys.gov 
       http://judiciary.house.gov    http://www.house.gov/reform
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

87-425 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
GEORGE HOLDING, North Carolina       PEDRO R. PIERLUISI, Puerto Rico
[Vacant]

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
























                            C O N T E N T S

                              ----------                              

                             APRIL 3, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security, Committee on the Judiciary....     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security, Committee on the Judiciary....     3
The Honorable Jason Chaffetz, a Representative in Congress from 
  the State of Utah, and Chairman, Subcommittee on National 
  Security, Committee on Oversight and Government Reform.........    32
The Honorable John F. Tierney, a Representative in Congress from 
  the State of Massachusetts, and Ranking Member, Subcommittee on 
  National Security, Committee on Oversight and Government Reform    33
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    37
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    38

                               WITNESSES

Alan D. Bersin, Assistant Secretary of International Affairs and 
  Chief Diplomatic Officer, Office of International Affairs, U.S. 
  Department of Homeland Security
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Janice L. Kephart, Founder and CEO, Secure Identity and 
  Biometrics Association (SIBA), former Counsel, 9/11 Commission
  Oral Testimony.................................................    51
  Prepared Statement.............................................    53
James M. Chaparro, Executive Vice President, Strategic Enterprise 
  Solutions
  Oral Testimony.................................................    67
  Prepared Statement.............................................    69
Frederic Wehrey, Senior Associate, Middle East Program, Carnegie 
  Endowment for International Peace
  Oral Testimony.................................................    76
  Prepared Statement.............................................    78

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security, Committee on 
  the Judiciary..................................................     6
Prepared Statement of the Honorable John F. Tierney, a 
  Representative in Congress from the State of Massachusetts, and 
  Ranking Member, Subcommittee on National Security, Committee on 
  Oversight and Government Reform................................    35
Additional Material submitted by the Honorable Trey Gowdy, a 
  Representative in Congress from the State of South Carolina, 
  and Chairman, Subcommittee on Immigration and Border Security, 
  Commitee on the Judiciary......................................   102

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security, Committee on 
  the Judiciary..................................................   107
Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security, Committee on 
  the Judiciary..................................................   108
Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   109

 
                   OVERTURNING 30 YEARS OF PRECEDENT:
                   IS THE ADMINISTRATION IGNORING THE
                   DANGERS OF TRAINING LIBYAN PILOTS
                        AND NUCLEAR SCIENTISTS?

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                        House of Representatives

            Subcommittee on Immigration and Border Security

                                 of the

                       Committee on the Judiciary

                                and the

                   Subcommittee on National Security

                                 of the

              Committee on Oversight and Government Reform

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 2:37 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee on Immigration and Border 
Security, Committee on the Judiciary) presiding.
    Present from the Committee on the Judiciary: 
Representatives Gowdy, Goodlatte, King, Lofgren, Conyers, 
Jackson Lee, and Garcia.
    Present from the Committee on Government Reform: 
Representatives Chaffetz, Bentivolio, Tierney, Kelly, and Lujan 
Grisham.
    Staff Present from the Committee on the Judiciary: 
(Majority) Allison Halataei, Parliamentarian & General Counsel; 
Dimple Shah, Counsel; Graham Owens, Clerk; and (Minority) David 
Shahoulian, Minority Counsel.
    Staff Present from the Committee on Government Reform: 
(Majority) Molly Boyl, Parliamentarian & Deputy General 
Counsel; Mitch Kominsky, Counsel; Linda Good, Chief Clerk; Sang 
Yi, Professional Staff Member; Sharon Casey, Clerk; (Minority) 
Jaron Bourke, Director of Administration; Peter Kenny, Counsel; 
Chris Knauer, Senior Investigator; Adam Koshkin, Research 
Assistant; Julia Krieger, New Media Press Secretary; and Juan 
McCullum, Clerk.
    Mr. Gowdy. The Subcommittee on Immigration and Border 
Security and the Subcommittee on National Security will come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time. We welcome our witnesses 
today. I will recognize myself first for an opening statement, 
and we will have a series of opening statements, given the fact 
that this is a joint hearing.
    The Administration is moving to lift the longstanding 
prohibition against Libyans entering the United States to work 
in aviation, maintenance, flight operations or to study or 
train in nuclear-related fields. Despite concerns expressed 
last November by Representative Jason Chaffetz and Chairman Bob 
Goodlatte, DHS moved forward with this change and sent the 
draft final regulation to OMB.
    Under the terms of the regulation, the removal of the 
prohibition will go into effect without prior notice and 
comment. We would have to trust the Libyan Government and the 
Administration to appropriately vet which Libyans would be 
allowed to learn to fly planes and study nuclear technology.
    The current prohibition was put into place in the early 
1980's after a series of terrorist incidents involving Libyan 
nationals. On December 2, 1979, a mob attacked and burned the 
U.S. Embassy in Tripoli; and on December 29, 1979, the United 
States designated Libya as a state sponsor of terrorism.
    In order to protect Americans, on March 11, 1983, the 
Reagan Administration implemented this rule to prohibit Libyan 
nationals or other foreign nationals acting on behalf of the 
Libyan entity from obtaining certain immigration benefits for 
the purpose of engaging and/or seeking to obtain aviation 
maintenance, flight operations or nuclear-related studies or 
training.
    While we have hope for a democratic Libya, the question we 
must consider today is, has enough changed to lift this 
longstanding ban? Why now is post-revolutionary Libya secure 
enough to justify and warrant the change? And let's consider 
some recent events, if we will. The National Transitional 
Council has struggled to govern Libya effectively since the 
fall of Qadhafi. The majority of territory outside of Tripoli 
has fallen under control of armed militias that have refused to 
disarm.
    Just 3 weeks ago, on March 12, 2014, the Libyan prime 
minister fled after parliament voted him out of office. 
Militias based in Western Libya, notorious for their violence 
and independence, have launched an offensive against the 
Eastern rebels and what can be the opening shots in a civil war 
between Western and Eastern Libya. Without a central 
government, without any real power, Libya may be falling apart. 
Only 2 weeks ago, Libya acknowledged for the first time that 
terrorist groups were behind dozens of attacks against security 
services.
    The government issued a statement on March 19 saying, 
``Benghazi and other cities are facing a terrorist war waged by 
Libyan and foreign elements who have hostile, evil agendas.'' 
On March 20, Libya's Government called for international help 
to fight terrorism that is threatening internal stability in 
the country. On the same day, a missile was launched at the 
Tripoli Airport runway, shutting down the airport.
    And finally, the head of Libya's military police was 
assassinated in Benghazi in October while Libya's first post-
Qadhafi prosecutor general was shot dead on February 8, 2013. 
Unfortunately, these new reports indicate that the militias are 
getting stronger and not weaker, so why is the Administration 
proposing to lift a 30-year ban on Libyans coming to the U.S. 
to train as nuclear scientists now?
    The Administration's draft regulation justifies the change 
because the U.S. Relationship with Libya has been normalized. 
In November, my colleagues, Representatives Chaffetz and 
Goodlatte, wrote to acting Homeland Security Secretary Beers 
about this rule change and spelled out specifically the violent 
threats and actions against American antiterrorism operations 
in the country.
    And we cannot talk about the Libyan-American relationship 
without acknowledging the attack against the diplomatic post in 
Benghazi resulting in the murder of four Americans. How is this 
relationship normalized when our Ambassador was murdered in 
Benghazi 18 months ago and not one single solitary person has 
been arrested, prosecuted or brought to justice? It seems, 
therefore, unjustifiable to rescind a 30-year rule at this 
time.
    Why are we willing to risk, no matter the likelihood, 
chancing Libyan extremists for terrorists to come here to 
essentially learn the skills to commit acts of terror? So why 
in general, and why now specifically? What has changed? And the 
burden of advocating for change, in my judgment, in the status 
quo lies with the Administration.
    With that, I will recognize the Ranking Member Ms. Lofgren 
from California.
    Ms. Lofgren. I thank you, Mr. Chairman.
    Based on the letters that the majority has sent to the 
Department of Homeland Security as well as the opening 
statement, I believe the concerns can be summarized as follows: 
The Libyan Government is fragile. There are extremist elements 
in the region that would do us harm. So we can't lift the visa 
restriction because these people might somehow harm us.
    This argument, however, is illogical.
    First, as the Department of Defense, which initiated the 
request to rescind the visa restriction in the first place, 
makes clear, the whole point of lifting the visa restriction is 
to help the Libyan government defeat those very extremists. 
Members on both sides of the aisle, including Republican 
Senators John McCain, Lindsey Graham, and Saxby Chambliss, have 
recognized the critical importance of helping the new 
democratically elected Libyan Government secure itself against 
militant extremism in the region.
    But the visa restrictions actually stand in the way. 
Because the restriction affects all Libyans, it means we can't 
even train the pro-Western forces within the Libyan Air Force 
on the aircraft they need to secure their own country against 
extremist forces. The Libyan Government's ability to fight such 
forces depends on being able to move troops and equipment 
throughout the country, and the country currently uses Lockheed 
C-130 military transport planes and Boeing CH-47 cargo 
helicopters to do that.
    But according to the Defense Department, the fleet is aging 
and needs repair and replacement, and many more pilots and 
flight crew need to be trained. There are proposals to buy 
additional aircraft and parts from U.S. companies and to 
provide training to pilots and flight crews, but the visa 
restrictions stand in the way of those arrangements.
    Members on the other side of the aisle may raise the 
unfortunate attacks on Benghazi at this hearing today, but that 
event actually underscores why we should lift the visa 
restriction. On the night of the attack, it was one of those 
very same Lockheed C-130 transport planes that the Libyan 
Government used to rescue and evacuate their surviving consular 
personnel at the U.S. compound in Benghazi. Rather than used 
against us, that plane helped Americans survive.
    Now, when my colleagues on the other side of the aisle 
nevertheless raise the Benghazi attack, as well as other 
terrorist incidents within Libya, as grounds for keeping the 
visa restriction in place, we must keep in mind that there is a 
difference between the extremist forces behind these incidents 
and the pro-Western Libyan military that is trying to defeat 
them.
    And that is the point of lifting the visa restriction. The 
visa restriction simply does not differentiate between the 
Libyan forces we are trying to help and the forces we are 
trying to defeat. It bars friend and foe alike, and that just 
isn't smart policy.
    That gets us to the second big reason why we should rescind 
the visa restriction: It simply isn't needed to keep America 
safe from harm. We must bear in mind that the 30-year-old 
Libyan visa restriction is the only such country-specific visa 
ban of its kind. It is an anachronistic relic of a bygone era.
    If a ban were necessary with respect to Libya, which is not 
designated a state sponsor of terrorism since the Bush 
Administration removed them from the list in 2006, wouldn't it 
be even more necessary with respect to countries that are 
actually designated as state sponsors of terrorism? Well, those 
bans don't exist. There are no country-specific bans for Iran, 
Syria, Sudan, Cuba, the countries currently listed as state 
sponsors of terrorism, nor is there a ban for rogue nations 
like North Korea. And that is because our immigration laws 
provide plenty of authority to prevent the travel of 
individuals who pose a danger to the U.S. and its interests.
    Our immigration laws already require the denial of visas to 
persons with suspected ties to terrorism as well as anyone who 
is otherwise suspected of posing a threat to national security. 
Our immigration laws also require consular officials to deny 
visas for an individual whose travel raises significant foreign 
policy concerns. The same is true for any individual suspected 
of potentially violating the terms of their visa or admission 
to the United States.
    Over the years, including after the attacks of September 
11, 2001, this country has not seen fit to erect more country-
specific restrictions like the Libyan visa ban. Instead, the 
U.S. moved in a very different direction, erecting bans that 
actually focused on whether the admission of a particular 
individual was helpful or harmful to U.S. interests.
    In other words, we adopted policies that allowed us to let 
in our friends and to keep out our enemies, rather than barring 
them all. Doesn't that make more sense? But, unfortunately, 
sense is rarely what congressional hearings are about these 
days, and I am afraid we will see potentially some scare 
tactics and political attacks on the Administration. I hope 
not. I hope that my fear is not grounded.
    I do thank the witnesses for joining us today, and I yield 
back the balance of my time.
    Mr. Gowdy. Before we go vote and come back, I would ask 
unanimous consent to put a couple things in the record.
    Number one, the Libya final regulation, final action notice 
from the Secretary of DHS, Janet Napolitano, former Secretary 
of DHS; February 1, 2010 letter to Assistant Secretary Heyman, 
from Assistant Secretary Jeffrey Feltman; May 31, 2012, letter 
to Assistant Secretary Heyman from Assistant Secretary Jeffrey 
Feltman; February 12, 2013, action memo from Mr. Bersin to DHS; 
April 1, 2014, letter to Mr. Bersin from the Assistant 
Secretary of Defense Amanda Dory; March 21, 2014, letter to 
Chairman Goodlatte and myself from Brian de Vallance, Acting 
Secretary for Legislative Affairs of DHS; and finally, 
information from OMB showing the date the regulation was sent 
to them and that the review was extended.
    Because the Freedom of Information Act and the Privacy Act 
include explicit exemptions for disclosure to Congress Members 
and staff of the House are not restricted in their use of the 
information provided by DHS. As is typical, the speech and 
debate clause also applies in this context.
    With that, I want to apologize to our witnesses--I am 
asking unanimous consent. Is there an objection from the 
gentleman from Utah?
    Mr. Chaffetz. No.
    Mr. Gowdy. Okay. So admitted.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Gowdy. I will apologize to the four witnesses. We will 
vote as quickly as we can, and then we will come back and 
recognize the remainder of our colleagues for their opening 
statements and then you for yours.
    And with that, we are temporarily recessed.
    [Recess.]
    Mr. Gowdy. The Subcommittee will come to order and the 
Chair will now recognize the Subcommittee Chair from Oversight, 
the gentleman from Utah, Mr. Chaffetz for his opening 
statement.
    Mr. Chaffetz. I thank the Chairman.
    I thank you all for being here today on this topic.
    I simply don't understand. Who in the Federal Government 
wakes up in the morning and says, You know, what is in the best 
interest of the United States, what would improve the national 
security posture of the United States is to make sure the 
Libyan nationals can come to the United States and learn about 
nuclear sciences, that we have got to teach them about 
aviation?
    Like who actually wakes up in this country and says, this 
will be in the best interest of the United States of America; 
let's teach the Libyan nationals about nuclear sciences? That 
makes no sense to me. None.
    Now, I am sure there are a lot of good and decent people 
there that are going through a lot of difficult things, but it 
does not mean that we should be actively pursuing the bringing 
of Libyan nationals to the United States to train them on 
nuclear sciences.
    We have got enough Americans that can do this. And as it 
relates to aviation security and aviation, we can teach them 
overseas. We don't need to bring them to the United States of 
America to do this, where we don't monitor them once they are 
here.
    I was very surprised to read the Department's draft final 
regulation, Billing Code 9111-28, that stated, ``DHS has 
determined that maintaining this regulation would no longer 
reflect current U.S. Government policy toward Libya.'' I am 
curious to hear what exactly the Administration's current 
government policy toward Libya entails. Of all the things in 
the world we have got to do and work on, this is what the 
Administration is working on, how to loosen up the visa 
requirements for Libyan nationals to come to the United States?
    Equally troubling to me was reading Mr. Bersin's memorandum 
addressed to then DHS Secretary Janet Napolitano on February 
12, 2013. In his memo, Mr. Bersin recommended that the 
Secretary take regulatory action to rescind Section 214.5 of 
Title 8 of the Code of Federal Regulations. What is most 
surprising is that the memo postdates the tragic day in 
Benghazi when our country lost four Americans during a 
terrorist attack.
    We couldn't even send our FBI into Eastern Libya for 18 
days because it was so dangerous. We couldn't get the 
intelligence that we needed. We couldn't even get the FBI to go 
into that part of the country. And yet, we want to give those 
same people a visa to come to the United States to learn about 
nuclear sciences? Wow!
    However, not one mention of the chaos and violence in Libya 
is made in the memo. There appears to be zero consideration of 
any geopolitical concern in rescinding this 31-year-old rule 
that prohibits certain Libyan nationals from engaging in 
aviation or nuclear-related training in the United States. 
Meanwhile, just last month, it was reported that the Libyan 
former Prime Minister Ali Zeidan fled after parliament voted 
him out of office.
    A North Korean oil tanker illegally picked up a cargo of 
crude from rebels in Eastern Libya, despite a Libyan 
government's threat to detain the vessel. In Western Libya, 
militias launched attacks against Eastern Libya rebels, which 
could provoke a civil war. These events do not indicate a 
nation where things have been, ``normalized,'' rather they seem 
to be ingredients of a failed state in the making.
    Another reason why the Department's rescission of this 
prohibition in the CFR is so troubling is the lack of any prior 
notice or comment period. That is a deep concern. I have read 
the testimonies of the witnesses, and it seems that we are all 
in agreement: Libya is a very dangerous place, challenged by 
instability. And when looking at corruption indexes, Libya 
ranks 172 out of 177, making it the sixth most corrupt country 
in the world, if you are going to believe that index.
    I was in Libya in September 2012. I was in Libya again in 
November of 2013. I heard firsthand the security challenges of 
the country. I met with the deputy prime minister, who noted 
that the security situation in Libya is tumultuous at best. He 
referred to his government as an accidental government. It was 
the byproduct of removing an existing government, and he 
claimed one of the main obstacles to their progress was a 
police force, was the lack of a reliable ministry of interior, 
intelligence and internal affairs apparatus to help the police 
force.
    When we go to give somebody a visa, we rely on the host 
nation to help us identify that person and understand their 
background. That does not happen in Libya. Let's be realistic. 
Muammar Qadhafi was ruling there for 40-plus years. They don't 
have the infrastructure and the ability to deal with this.
    Now, there was some assertions early on in the testimony 
that, well, we need to train them on aviation. Well, then do it 
overseas. That is how we have done it in the past. There is 
this assertion that there is no prohibition against getting 
visas from state sponsors of terrorism and other countries. I 
want to sponsor that bill. It is a good idea.
    I want to sponsor a bill that says if you are coming from 
trying to get a visa from a state sponsor of terrorists, then 
you shouldn't be able to get a visa here in the United States.
    And there are multiple restrictions on Cuba, Mongolia, 
North Korea, Vietnam, the People's Republic of China, for all 
sorts of different visas. We have these type of visa--
restrictions in Iran for people trying to come from Iran. So 
there is precedent.
    I don't see, Mr. Chairman, the reason why we have to deal 
with this now, and I am glad to have this hearing.
    Yield back.
    Mr. Gowdy. I thank the gentleman from Utah.
    The Chair will now recognize the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I thank our witnesses for being here today, as well. I am 
going to ask unanimous consent to enter my opening statement in 
its entirety into the official record and make just a couple of 
brief remarks.
    Mr. Gowdy. Without objection.
    Mr. Tierney. Thank you. We are having a review of the 
attempt to define the bilateral relationship between our 
country and Libya. And both before and after the fall of Mr. 
Qadhafi, the Department of Defense espoused the need to lift 
the restrictions that we are discussing.
    In view of Libya's challenges in building and stabilizing 
democratic institutions it seems advisable that we review 
whether or not the success of that country in transitioning has 
impacted its ability to meet national security requirements in 
a manner that strengthens or weakens the development of its 
armed forces and political process.
    Everybody agrees that there is greater political 
uncertainty now than there was perhaps in 2012, but if the 
Department of Defense security experts feel that military 
cooperation is a good idea, if they think it would help 
stabilize the government, then it would seem to make sense to 
me that we have the Department of Defense and their defense 
experts here to discuss whether or not the current political 
infrastructure is secure enough and reliable enough to warrant 
a cooperation that is being recommended.
    And I just think that is one of the faults of today's 
hearing, is we don't seem to have a full panoply of people that 
are making the recommendation, which I think would make 
ultimate sense, and therefore, the Committee Members are not 
going to get a full discussion of this matter, and I regret 
that.
    With that, I will rely on the rest of my statement that has 
been entered upon the record and thank the Chairman.
    Mr. Gowdy. I thank the gentleman from Massachusetts.
    [The prepared statement of Mr. Tierney follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. The Chair would now recognize the gentleman from 
Michigan, Past Chairman of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman. And we welcome Mr. 
Tierney to our ranks.
    I would like to make this observation, if I may. Namely, 
that the Department of Defense had asked the State Department 
and the Department of Homeland Security to rescind a dated 30-
year-old regulation that is currently hindering U.S. interests 
in Libya. That regulation, which prevents Libyan nationals and 
certain other individuals from coming to the United States to 
study flight operations, aircraft maintenance and nuclear 
science, was put in place in 1983 when Libya had training camps 
and supported terrorism around the world.
    Such a prohibition on visas for Libyan nationals may have 
made sense in 1983, but it does not make sense over 30 years 
later. If country-specific travel bans were necessary to keep 
us safe, we would have instituted them for other countries, 
like designated state sponsors of terrorism--Iran, Cuba, Syria 
or Sudan--and other countries, like North Korea. But we 
haven't. That is because our immigration laws provide broad 
authority to restrict travel to individuals who may do us harm.
    The government already denies admission to anyone suspected 
of having ties to terrorism, anyone suspected of otherwise 
posing a threat to national security, anyone whose travel 
raises significant foreign policy concerns, and even anyone 
suspected of potentially violating the terms of their visa or 
admission to the United States. This kind of system basically 
allows us to keep in the good guys and keep out the bad guys. 
It is far superior to a system like the Libyan regulation that 
keeps out friend and foe alike.
    Libya, and our relationship with Libya, has changed 
dramatically since the regulation was promulgated in 1983. In 
the late 1990's, Libya became an ally in the war against 
terrorism. In the years following, Libya condemned the 9/11 
attacks against the United States, paid compensation for 
attacks it had been responsible for in the past, destroyed and 
surrendered its weapons of mass destruction, signed 
international treaties and protocols on nonproliferation and 
otherwise sought to return to the good graces of the 
international community.
    For these actions, the administration of former President 
George W. Bush ended sanctions against Libya in 2004. In 2006, 
President Bush and Secretary of State Condoleezza Rice removed 
Libya from the list of state sponsors of terrorism. Secretary 
Rice even said that the United States was resuming, ``normal 
diplomatic relations,'' with Libya. Based on those improving 
relations, the Department of Defense, not known for being soft 
on terrorism, requested that the Libyan regulation be 
rescinded.
    Libya's ability to fight off extremist forces in the 
region, as well as the Arab spring and the Libyan civil war, 
put efforts to lift the Libyan regulation on hold. But once 
Libya established a new democratically-elected government, one 
that sought closer cooperation with the United States, the 
Defense Department renewed its request to lift the visa 
restriction.
    The principle reason for lifting the restriction is to help 
the Libyan Government fight a common enemy, extremist militants 
in the region. Ladies and gentlemen, this is critical. A few 
months ago, Senator John McCain went to Libya and explained the 
critical importance of training the Libyan armed forces. He 
said, and I quote, ``I have met with the military here, and we 
are confident that we have plans now for training and equipment 
for the Libyan military.''
    Senator McCain noted that this support was critical for 
helping the Libyan armed forces carry out their security and 
border management tasks, tasks critical to beating the 
extremist forces in the region. But the current visa 
restriction prevents us from providing a great deal of this 
training and equipment, thus making it more likely that the 
extremists may win.
    I doubt that this is the outcome anyone here wants, and I 
thank the witnesses for joining us here today for this 
discussion, and I yield back the balance of my time.
    Mr. Gowdy. Thank you, gentleman from Michigan.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    I would like to thank you and Chairman Chaffetz for holding 
this hearing.
    On February 1, 2010, then Assistant Secretary of State for 
the Bureau of Near Eastern Affairs Jeffrey Feltman requested 
ending the longstanding prohibition against Libyans entering 
the United States to work in aviation maintenance flight 
operations or to study or train in nuclear-related fields. 
Shortly thereafter, widespread unrest in Libya precluded the 
U.S. Government from engagement with Libya.
    The post-Arab Spring civil war in Libya led to the fall of 
the Qadhafi regime in August 2011, and Qadhafi was captured and 
then killed by rebel forces in October 2011. Following the 
revolution, the Obama administration once again began the 
process of ``normalizing'' relations with that country.
    Yet, on September 11, 2012, U.S. Ambassador John 
Christopher Stevens and three other State Department officials 
were killed when terrorists stormed the U.S. Consulate in 
Benghazi, Libya, and set it ablaze. A statement by U.S. State 
Department spokeswoman Victoria Nuland said the United States 
condemned the attack ``in the strongest terms,'' and was 
working with Libyan security forces to secure the compound.
    President Obama called the attack in Benghazi outrageous 
and shocking and vowed its perpetrators will face justice. ``I 
have also directed my Administration to increase our security 
at diplomatic posts around the world,'' Obama said. ``And make 
no mistake, we will work with the Libyan Government to bring to 
justice the killers who attacked our people.''
    To date, no one has been brought to justice for these 
attacks. Instead and despite these attacks, on May 31, 2012, 
Feltman, along with Joseph McMillan, Acting Assistant Secretary 
of Defense for International Security Affairs, again asked DHS 
to end the provision stating the ``outdated regulation does not 
reflect current U.S. Government policy towards Libya.'' 
Unbelievably, the letter makes no mention of the attacks, 
acting as if they had never occurred.
    Rather, as outlined in a February 12, 2013, memo from Alan 
Bersin, signed by Secretary Napolitano, ``According to the U.S. 
Embassy in Tripoli, there is a robust plan in place to 
encourage engagement and educational exchanges in coming years 
with the Libyan Government. The Department of Defense is 
attempting to initiate a program of aircraft sales, pilot 
training and ground crew training early this year worth $2 
billion, the contracts for which would go to other countries if 
training could not be conducted in the United States. The 
Departments of Defense and State have made it clear that, 
absent its rescission, the regulation will significantly hamper 
these efforts.''
    On April 1, 2014, just 2 days before this hearing, the 
Department of Defense reiterated its desire to see the 
regulation lifted to Mr. Bersin. The memo from Mr. Bersin also 
fails to mention the attack in Benghazi, the first time an 
ambassador for the United States had been killed since 1979. 
The longstanding prohibition on Libyans was put in place to 
protect the homeland against serious threats from terrorists 
from a particularly unstable and dangerous country.
    The Obama administration argues that it is no longer 
needed. However, many of the characteristics regarding Libya 
that caused the regulation be put in place persist today. 
Regardless of any progress that may have been made following 
the removal of Muammar Qadhafi from power, many extremist and 
terrorist groups operate unfettered in Libya.
    Two weeks ago Libya acknowledged for the first time that 
terrorist groups were behind dozens of attacks against security 
forces. And on March 20, Libya's Government called for 
international help to fight terrorism that is threatening 
internal stability in that country. That same day, a missile 
was launched at the Tripoli Airport.
    Four 9/11 hijacker pilots obtained their expertise in 
aviation primarily at U.S. flight schools. Do we want to risk 
Libyan terrorists learning how to fly airplanes in the United 
States? Given the desire of radical regimes and terrorists to 
obtain or build nuclear weapons or dirty bombs, do we want to 
possibly train Libyan terrorists in nuclear engineering?
    If the prohibition is lifted, not only can Libyan 
supposedly vetted by the Administration receive this training, 
but any Libyan can seek to do so.
    Ultimately, it does not appear that national security has 
been adequately considered in the effort to end the 
prohibition. It is uncertain whether our immigration system has 
sufficient integrity to ferret out applicant's long-term 
motivations for receiving an education in sensitive topics from 
the United States.
    As a final note, we have long been seeking information from 
the Department of Homeland Security regarding the status of the 
rescission of the regulation and the role of the White House. 
We only received answers to some of the questions we asked 
after this hearing was announced. It is troubling that it takes 
such actions by the Committees to receive information from DHS 
that is vital for us to fulfill our legitimate oversight role.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Gowdy. I thank the Chairman.
    We have a distinguished panel of witnesses.
    I am going to do my best to summarize and capture your 
backgrounds. If I leave something out, it is not because it is 
not important; it is because I am trying to get you out of here 
at a reasonable hour. We have your opening statements and then 
questions.
    I am going to introduce you en bloc, and then I will 
recognize you individually for your opening statements and hope 
that you do a better job than I did at staying within the 5-
minute time period. The lights mean what they normally mean: 
Green means go; yellow means speed up; and red means stop.
    First, Mr. Alan Bersin currently serves as assistant 
secretary of international affairs and chief diplomatic officer 
for Department of Homeland Security, a position he has held 
since January of 2012. He oversees the Department's 
international engagement and serves as the principal adviser to 
Secretary Jeh Johnson on all international affairs. Previously, 
he was the Commissioner of the U.S. Customs and Border 
Protection. He has graduated from Harvard, Oxford and Yale, 
where he got a law degree.
    Ms. Janice Kephart--if I mispronounce your name, forgive 
me--currently serves as CEO of Secure Identity and Biometrics 
Association, a firm that works to create awareness and promote 
the value of secure identity technologies and biometric 
solutions. She also recently returned from the special counsel 
position with the Senate Judiciary Committee. Prior to that, 
she was counsel with the 9/11 Commission and was the author of 
``9/11 and Terrorist Travel.'' She holds degrees from Duke and 
Villanova School of Law.
    Mr. James Chaparro is executive vice president for strategy 
at Strategic Enterprise Solutions, an information technologies 
services and management consulting company that delivers 
cybersecurity technology and program management capabilities to 
better enable the government to accomplish their mission. Prior 
to that, he had a distinguished 26-year long career in Federal 
law enforcement in the national intelligence community. He has 
a bachelor of arts degree in political science from California 
State, University of Long Beach, and a graduate of the Federal 
Law Enforcement Training Center in Glynco, Georgia.
    Dr. Frederick Wehrey is a senior associate in the Middle 
East Program at Carnegie Endowment for International Peace. His 
research focuses on political reform and security issues in 
Arab Gulf states, Libya and U.S. policy in the Middle East. 
Prior to that, he was senior policy analyst at RAND 
Corporation. He was also a lieutenant colonel in the U.S. Air 
Force Reserve, completed tours in Turkey, Uganda, Libya, 
Nigeria and Iraq, where you earned the Bronze Star in 2003. We 
thank you for your service.
    He holds an M.A. In Near Eastern studies from Princeton and 
a Ph.D. In international relations from Oxford.
    With that, we would recognize Mr. Bersin for his 5-minute 
opening statement.

      TESTIMONY OF ALAN D. BERSIN, ASSISTANT SECRETARY OF 
 INTERNATIONAL AFFAIRS AND CHIEF DIPLOMATIC OFFICER, OFFICE OF 
  INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bersin. Chairmen Goodlatte, Gowdy, Chaffetz, Ranking 
Members Conyers, Lofgren and Tierney. I want to assure you that 
we have not approached the subject of today's hearing without 
careful consideration.
    Secretary Napolitano considered it carefully as is 
Secretary Johnson, who is taking great care to review this 
important issue.
    I share your commitment to the safety and security of our 
nation, and I would never undertake any measure that would 
place this country in jeopardy. I have never awakened on any 
morning with the intent to do so. My entire public career and 
public life is to the contrary.
    Ladies and gentlemen, we have good reasons and prudent ones 
for changing this regulation, and I want to ensure you are 
comfortable with our thinking or that at least you understand 
the basis for the recommendation. I am also available to 
discuss this issue with you individually.
    Today, I would like to discuss why this is a sound policy 
from the standpoint of ensuring that we are issuing visas 
appropriately and safely admitting those who we allow to enter 
the country in accordance with congressional mandates that have 
been established after 9/11.
    In 2013, the Department of Homeland Security under then 
Secretary Napolitano agreed to formal request by the 
Departments of State and Defense to begin the process to amend 
the provision from 1983, barring Libyan nationals seeking to 
study aviation maintenance, flight operations or nuclear-
related fields in the United States.
    It is important to note, as have the Ranking Members, that 
8 CFR Section 214.5 applies only to Libyan nationals or other 
foreign nationals acting on behalf of a Libyan entity. There 
are no other DHS regulations similarly restricting nationals of 
other countries, including those that today remain state 
sponsors of terrorism.
    Much has changed since 1983. The most important change is 
that we suffered the attack of 9/11, and after that trauma, 
Congress legislated a whole series of security requirements in 
response. Notably, Congress did not adopt the technique 
embodied in 214.5 of banning nationals of this country or that 
country. Instead, Congress adopted a case-by-case approach to 
be filtered through multiple layers and checks which is what we 
have proceeded to accomplish over the last 13 years.
    As a result, distinguished Members, the U.S. Government has 
exponentially expanded procedures for vetting immigrants, 
refugees and visa applicants. Today, our vetting process 
considers a far broader range of information than it ever has 
and certainly did in 1983 or in the years before 9/11.
    In the absence of 8 CFR 214.5, Libyan visa applicants 
seeking admission to the United States for any purpose, to 
include aviation, nuclear-related training, would be subject to 
the array of visa security measures currently in place to 
protect U.S. borders from terrorist-related or other elicit 
travel. Each year, 365 people cross our borders to visit this 
country for one purpose or another. Every one of them is 
subject to the restrictions and the layers of security that I 
look forward to discussing with you this afternoon.
    Interagency stakeholders, to include DHS, the Department of 
State, FBI, the National Counterterrorism Center and other 
intelligence community partners have constructed a visa-vetting 
processes that leverages state-of-the-art technology, expensive 
information sharing, highly skilled and trained officers and 
comprehensive interagency cooperation, all to facilitate 
legitimate trade and travel without compromising our Nation's 
security.
    The Security Advisory Opinion mechanism is an interagency 
secondary screening process available to consular officers to 
provide supplemental advice and background information to 
adjudicate cases of visa applicants with possible terrorism or 
other security-related ineligibilities. Specific to the 
nuclear-related provision of 214.5, Libyan visa applicants 
would be subject to a specific type of security advisory 
opinion known as Visas Mantis. The purpose of Visas Mantis is 
to ensure comprehensive interagency vetting to guard against 
improper technology transfers.
    Initially, in 2010 and then in 2012, the Departments of 
State and Defense formally requested that DHS rescind 214.5 to 
allow for comprehensive bilateral security with the Libyan 
government. I want to discuss with you today, and I look 
forward to doing so, why we at DHS felt that that would not 
jeopardize the security of this Nation or the safety of the 
American people.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bersin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Gowdy. Thank you, Mr. Bersin.
    Ms. Kephart.

    TESTIMONY OF JANICE L. KEPHART, FOUNDER AND CEO, SECURE 
 IDENTITY AND BIOMETRICS ASSOCIATION (SIBA), FORMER COUNSEL, 9/
                         11 COMMISSION

    Ms. Kephart. Good afternoon, Chairman Goodlatte, Chairman 
Chaffetz, Chairman Gowdy, Ranking Member Conyers, Ranking 
Member Lofgren, Ranking Member Tierney and distinguished 
Members of the Subcommittees.
    To be clear, I am not representing the views of the Secure 
Identity and Biometrics Association today, an organization I 
founded in February.
    I understand that DOD, DOE and DOS all have strategic 
reasons for wanting the Libyan visa ban on aviation and nuclear 
studies lifted and that military and diplomatic agreements are 
the usual course of business for the United States. However, 
when the immigration system is affected in such a contract, 
such situations must be treated with careful consideration. The 
immigration system is more than a token and a contract but a 
gateway to our great benefits and a core strategic partner in 
security.
    As such, I deeply appreciate Mr. Bersin's testimony. He has 
illuminated much in major improvements to visa processing that 
support what we learned on the 9/11 Commission and since that 
time.
    Unfortunately, there is more than just process at stake in 
rescinding this rule. Remember, there is absolutely nothing in 
place legally when this rule is rescinded: no processing 
requirements, no caveats, no limits on only DOD-endorsed 
individuals having access to these visas, for example.
    Visas Mantis for high science visas like nuclear studies is 
discretionary. Flight school vetting for DOD-endorsed 
individuals will be waived, and we know the security concerns 
here are widely understood because of the 9/11 hijacker pilots, 
who obtained their expertise in aviation primarily at U.S. 
flight schools.
    Kingfisher counterterrorism automated vetting is not 
clearly required.
    PATRIOT vetting by ICE officers is not fully in place yet, 
and we don't even know if it would apply to Libya. Any Libyan 
in any militia that is threatening the Libyan Government right 
now, Al-Qaeda or numerous dangerous elements in Libya, could 
apply that, but our intelligence simply can't pick up where 
there are so many degrees of anti-U.S. sentiment.
    While I personally don't think it is the right time for 
rescission, the foreign policy questions are for this body and 
Administration to jointly decide. What I want to do with the 
remainder of my time is pose some areas that deserve further 
consideration.
    Let me begin with the sensitive and dual-use technologies. 
Current law requires that nations actively sending their 
citizens to study nuclear and other sciences will not use that 
knowledge to increase a region's instability, for one; or two, 
develop and transfer arms or sensitive technologies to 
terrorists.
    In Libya, we have both issues of concern. The region and 
the government are highly unstable and the Libyan Government 
could end up transferring sensitive technologies to terrorists 
under a lot of different scenarios. The 1983 rule under 
consideration today requires that no detrimental security 
situation be implicated, but rescission will repeal that 
standard, too.
    Also, why does Libya want these students in the U.S. 
really? With a $2 billion military contract at stake, will 
these state-sponsored students have to work for the Libyan 
Government and in what capacity? Historically, for example, 
Iraq's strategy was to send students specifically to study 
nuclear-related subjects in order to develop Iraq's 
nonconventional weapons programs. One of these students 
received his doctorate in nuclear engineering from Michigan 
State University, then returned to Iraq to head its nuclear 
weapons program.
    Similarly, at least three Iranian officials suspected of 
developing Tehran's nuclear program also reportedly studied in 
the United States.
    Libya reportedly sent students to develop Tripoli's weapons 
programs prior to Qadhafi's fall.
    In 2012, we banned Iranians from obtaining nuclear and 
energy-related visas. The precedent set in 2012 represents not 
creating a detrimental security situation, which could be very 
well preserved in the current rule.
    And what do we really know about the individual Libyan 
applicants in a nation being torn by internal terrorist 
activity? For both nuclear and aviation applicants, it is 
unclear whether the Administration's self-created Interview 
Waiver Pilot Program could apply to applicants under this rule.
    You may recall that the visa interview played a major role 
in our 9/11 Commission recommendations and findings. The 
Interview Pilot Program enables the waiver of interviews deemed 
in the national interest, and there is the possibility that the 
national interest exception could apply to some of these 
Libyans. The result could be no robust security vetting, nor 
interviews for certain Libyans.
    In conclusion, there is no doubt that this rule could 
detrimentally provide access for Libyans to highly desired 
nuclear and aviation visas. However, if there is a decision to 
do so, I highly recommend limiting access of these visas to the 
original DOD request in the contract, mandating interviews, 
mandating Secure Advisory Opinion and Alien Flight School 
Program vetting, which is not mandated, using the student 
tracking to its utmost potential, and enforcing immigration law 
where appropriate.
    Thank you so much. I look forward to your questions.
    [The prepared statement of Ms. Kephart follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Gowdy. Thank you, ma'am.
    Mr. Chaparro.

   TESTIMONY OF JAMES M. CHAPARRO, EXECUTIVE VICE PRESIDENT, 
                 STRATEGIC ENTERPRISE SOLUTIONS

    Mr. Chaparro. Chairman Goodlatte, Chairman Gowdy, Chairman 
Chaffetz and Ranking Members Lofgren, Tierney and distinguished 
Members of the Subcommittee, thank you for inviting me to 
discuss DHS' proposed decision of 8 CFR 214.5. I have spent 
over two and a half decades of my professional career 
strengthening national security in a number of key positions.
    I have served as a frontline special agent with the 
Immigration of Naturalization Service; the director of 
antismuggling at INS; special agent in charge with U.S. 
Immigration and Customs Enforcement; the director of the Human 
Smuggling and Trafficking Center; executive associate director 
for Enforcement of Removal Operations at ICE; deputy 
undersecretary for intelligence at DHS, INA; and executive vice 
president at SE Solutions.
    My experience provides me with a deep understanding of 
threats and vulnerabilities impacting Homeland Security. I 
understand how our legitimate travel systems are continually 
exploited by those seeking to circumvent our security efforts, 
and I also understand the strengths and weaknesses of our IT 
systems that vet visitors as well as our enforcement 
capabilities' strengths and weaknesses.
    I am extremely proud of the men and women who labor around 
the clock and around the globe to help protect us. I understand 
their challenges firsthand, and I feel a burning sense of 
urgency to help them.
    Once a state sponsor of terrorism with an aggressive WMD 
program, Libya is working hard to evolve to accepted norms of 
international conduct and governance.
    Despite the best efforts of Libya's weak and unstable 
government, Libya remains a very dangerous place. Radical 
extremists within Libya, including factions of Al-Qaeda, 
continue to present genuine threats to Libyan security and to 
our own. Libya's ineffective border controls cannot stand the 
illicit flow of people and weapons across its borders. In fact, 
the U.N. Security Council issued a statement last December 
urging the Libyan Government to gain control of the vast 
amounts of unsecured weapons in Libya, citing the risks of 
having those weapons fall into the hands of extremist groups.
    I commend the Subcommittees for holding this hearing. While 
it is clearly in America's interest to strengthen relations 
with Libya, it is also in our interest to protect our own 
citizens at home. Rescinding 214.5 begs several questions: Does 
Libya have sufficient passport issuance controls, including 
effective anticorruption measures? Can Libya control its own 
borders to stem the flow of terrorists and weapons? Does Libya 
have the capability to conduct comprehensive background and 
security checks before it issues passports? Are the breeder 
documents used to issue Libyan passports secure?
    And then looking at our own mechanisms, how effective are 
our own border security screening tools? We have made progress, 
but we have gaps. How effective are we at monitoring the 
compliance of foreign students in the U.S.? Have we provided 
sufficient resources to maintain acceptable levels of 
compliance, and have we implemented effective deterrence for 
those who failed to comply? How effective are our IT systems at 
pushing that necessary information to our frontline officers 
and agents?
    The GAO has found considerable room for improvement in many 
of our border security programs, including SEVP which is 
designed to monitor compliance of foreign students. DHS, as Mr. 
Bersin noted, has made tremendous advancements in screening 
foreign nationals coming into the U.S. including the collection 
and analysis of biometrics information, federated search tools, 
targeting algorithms and increased information sharing.
    But these tools are not a panacea. The tools have improved, 
but funds have been cut in operational programs, such as 
Homeland Security investigations and enforcement and removal 
operations, who are our boots on the ground actually enforcing 
the law and pursuing the leads that these tools generate.
    For example, when I was running intelligence at ICE, 
Department of Defense was bringing in Afghan nationals to 
United States for military training to support the Afghan 
military. And about once a week, one of them would abscond, 
which causes great concern because many had training in 
explosives or training in weapons and tactics. And so my point 
is that these are very resource-intensive operations.
    My two and a half decades of training and experience has 
taught me that when it comes to the safety and security of the 
American people, we should err on the side of caution. I would 
rather explain to the Libyan Government why we want a little 
more time to deliberate this important policy matter rather 
than sit before this Committee at some point in the future 
explaining something that went horribly wrong. I wouldn't feel 
comfortable lifting the ban until we were satisfied with our 
answers to these questions, and I know and recognize it is a 
complex issue.
    I thank you for inviting me to testify and I am happy to 
answer your questions.
    [The prepared statement of Mr. Chaparro follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Gowdy. Thank you very much.
    Dr. Wehrey.

  TESTIMONY OF FREDERIC WEHREY, SENIOR ASSOCIATE, MIDDLE EAST 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Wehrey. Chairmen Gowdy and Chaffetz, Ranking Member 
Lofgren and Tierney and distinguished Committee Members, I am 
grateful for this opportunity to speak with you today about 
Libya's security crisis and why a repeal of CFR 214.5 is 
necessary to give the United States the flexibility to assist 
the Libyan Government in its difficult transition.
    I visited Libya four times since the fall of Qadhafi in 
2011, traveling to this country's main cities, including 
Benghazi. I have spoken with a range of government officials, 
military officers, Islamists and militia leaders about the lack 
of security and what to do about it. Now, prior to this, as an 
officer in the Air Force Reserve, I served as a military 
attache at the Defense Attache Office in Tripoli in 2009 and 
again in 2011 before the revolution.
    Based on this service and my visits, I will offer some 
observations about why U.S. assistance to Libya's military, 
especially in the aviation field, is so important for the 
country's security.
    Now, much of Libya's hope in bringing about a durable peace 
to its citizens lies in national reconciliation, a 
constitution, a functioning parliament and a government that 
can deliver services to its citizens. These are challenges 
where outsiders can assist by offering advice and modest 
assistance, but the ultimate burden must be carried by Libya's 
leaders and its civil society.
    The security field is an area where Libya's Government has 
sought outside help and where the U.S. is well positioned to 
assist. Libya desperately needs a capable military and a police 
to assert control of vast expanses of its territory and 
confront extremists bent on destabilizing the country and its 
neighbors.
    During my last trip to Benghazi in November, I was struck 
by the poor state of Libyan military units in that city, ill-
equipped and lacking even basic body armor and secure 
communications. They are often indistinguishable from local 
Islamist militias.
    Aviation is an especially important part of the effort to 
bolster security across the country. But the Libyan air force 
is currently unable to perform even basic missions. Long 
neglected by Qadhafi, its aircraft are poorly maintained; 
flight training is inadequate; and crashes are common. The 
Libyan air force lacks the critical capacity to ferry equipment 
and personnel from one part of the country to another.
    Now, in response to a request by the Libyan Government, the 
U.S. has committed to train and equip a new Libyan national 
army, denoted in military terms as a ``general purpose force.'' 
Equipping Libya's military with new lift and mobility aircraft, 
such as the C-130 and CH-47, is an essential element in the 
U.S. plan to help Libya secure its territory and confront 
extremism.
    So, too, is training a new generation of Libyan pilots in a 
secure U.S. location with adequate facilities and simulators. 
Training in Libya is unfeasible due to security conditions and 
the lack of facilities. CFR 214.5 stands in the way of this 
assistance.
    Now, certainly, the effort to build Libya's military faces 
challenges and difficulties. U.S. support to the Libyan 
military must be undertaken in a way that does not further 
polarize or destabilize the country. The U.S. must ensure that 
it trains a force that is respectful of human rights and 
subordinate to a democratically elected government. But to meet 
these challenges, the Department of Defense has to have the 
flexibility to meet Libya's security assistance needs.
    Mr. Chairman, let me conclude with a few words about 
Islamic extremism and the influence of Al Qaeda in Libya.
    Some observers have charged that the Libyan government has 
grown hostile to the United States and is under the sway of 
hardline Islamists. Much of this commentary is unfortunately 
based on a superficial reading of Libya's complex politics. 
Certainly, there are pockets of Libyan territory that are rife 
for exploitation by local jihadists working with transnational 
Al Qaeda elements, but I want to emphasize that these actors 
remain on the fringes of Libya's politics and its security 
institutions. Overwhelmingly, the country's Islamists reject 
violence for political means. Like most other Libyans they 
remain committed to moving the current forward on a democratic 
path, and they welcome cooperation with the United States, 
provided it is done in a way that is respectful of Libyan 
sovereignty and built on a foundation of mutual trust.
    Mr. Chairman, the repeal of CFR 214.5 will help build that 
trust. It will pave the way for the U.S. to provide vital 
aviation assistance to Libya's military. It is a small but 
important step in enabling the country's elected government to 
protect its citizens and territory, combat violent extremism, 
and advance the hard-won gains of its revolution.
    Thank you for the opportunity to speak with you here today.
    [The prepared statement of Mr. Wehrey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Gowdy. Thank you, sir.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte, for his 
questions.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Bersin, can you give us some more details about the $2 
billion contract that you believe is at stake here?
    Mr. Bersin. Mr. Chairman, the $2 billion figure that you 
quoted in the--from the memorandum was the information that, 
best information we had received from the State Department, the 
Defense Department in--at the time that the memorandum was 
composed. As you have seen from the letter filed in connection 
with this hearing, that number has been reduced based on the 
assessment of what assistance could be available to Libya.
    Mr. Goodlatte. And where was this assistance coming from?
    Mr. Bersin. From the United States.
    Mr. Goodlatte. So we would be paying the Libyans to come 
here and be trained, not generating additional work from 
outside the country, additional resources to pay people in the 
United States to provide these services?
    Mr. Bersin. I believe the reference in the letter dated 
April 1st related to hardware. Now I am not familiar with the 
budget lines that would separate between hardware that would be 
purchased and supplied and services that might be involved. I 
am simply not able to do that, although I am certain the 
Pentagon could.
    Mr. Goodlatte. You issued a memo to Secretary Napolitano 
advocating for rescission of the rule that bars Libyan 
nationals from entering the United States. The memo you sent to 
Napolitano fails to discuss the attacks on the U.S. compound in 
Benghazi, does not discuss recent terror threats coming out of 
Libya or the instability of the current Libyan Government. Do 
you think that any event would change the Administration's mind 
about rescinding the rule when the death of a U.S. Ambassador 
did not and very heavy terrorist activity inside Libya right 
now does not seem to change that?
    Mr. Bersin. Mr. Chairman, and respectfully, the attachments 
to the memorandum that was submitted with my memorandum to 
Secretary Napolitano did mention the tragic, horrible and 
unspeakably indefensible attack on our compound in Benghazi.
    Mr. Goodlatte. The attachment, but not the memo itself. So 
in the memo, you did not address those concerns? Why would that 
be?
    Mr. Bersin. Because the issue that we were addressing was 
the request of the Defense Department and the State Department 
made to engage with those elements of Libya, the Libyan 
Government, with whom we could do business and who would be 
able to take actions in the--that would be in the interest of 
the United States. The focus of our request, because that is a 
policy judgment that was recommended by State and Defense, and 
we did not take issue with it, but the focus of our concern was 
on how we would issue visas and what protections existed to be 
able to assure that we could do so securely and safely.
    Mr. Goodlatte. But isn't it true that if the regulation was 
lifted, there would be nothing in place to prevent any Libyan 
from seeking access to the United States for purposes of flight 
training or to study nuclear science?
    Mr. Bersin. They could, as is the case from, with the 
exception of Iran, from other citizens of sponsors of state 
terrorism in which there is no specific or overall ban, Mr. 
Chairman.
    Mr. Goodlatte. I don't want to get into other countries 
that we might want to add to that list, but I certainly don't 
have a problem associating what is going on in Libya today with 
the same kind of concerns we have with what is going on in Iran 
today. And why would we want to reduce that list in a country 
that is having the kind of problems. It is disturbing to me.
    Mr. Bersin. The ability to enlist and recruit those people 
who are known to our military and to our diplomats and to be 
able to distinguish between them and terrorists I think is a 
fundamental assumption here that is a good assumption.
    Mr. Goodlatte. Why didn't you modify the regulation to 
provide that only Libyans vetted by the U.S. military could 
seek to do these things? Why do you repeal the entire 
regulation?
    Mr. Bersin. Because of the system of vetting and the layers 
of security that exist, Mr. Chairman, we have confidence that 
we do this every day and that we could do this in this case. 
And with respect to the specific areas of flight maintenance 
and operations and nuclear-related fields, there are extra 
layers of security and vetting through which everyone who would 
be invited into the country would go through.
    Mr. Goodlatte. My time is running out. Let me turn to Ms. 
Kephart and ask her what she thinks about this. Do you agree 
with me that there is nothing that would prevent any Libyan 
from seeking access to the United States for purposes of flight 
training or studying nuclear science?
    Ms. Kephart. That is correct.
    Mr. Goodlatte. The State Department recently updated their 
security vetting procedures to include a new system called 
Kingfisher. The system was up and running for nonimmigrant 
visas as of June 15, 2013, and functions for immigrant visas as 
of the first week of September of last year. The notice to 
rescind the regulation makes no mention whatsoever of 
Kingfisher, though the rescission notice was sent to OMB on 
January 1, 2014. Isn't it crucial to ensure that Kingfisher 
processing is required for all Libyans seeking to study 
aviation or nuclear science?
    Ms. Kephart. I agree, and I would also add that right now, 
under the draft language supporting the final rule rescission, 
everything, all the other security vetting is discretionary as 
well. There is mention of Visa Mantis for nuclear science, but 
it is not required. There is mention of the flight, the Alien 
Flight Student Program, but that is waived for DOD applicants, 
so, you know, you have got some loopholes in there that are 
pretty big, and I think, and PATRIOT also is not mentioned, 
either, the visa security vetting as well. So I think these are 
all really great measures that if they are in place would help 
a lot with this particular rule, but it is not even mentioned, 
and having it discretionary leaves too many loopholes, in my 
view.
    Mr. Goodlatte. My time has expired.
    Thank you, Ms. Kephart.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you, Mr. Chairman.
    The Chair will now recognize the gentlelady from 
California, the Ranking Member of the Subcommittee, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    It is the Department of Defense that is really driving this 
proposal as best I can figure, and the letter that has been put 
into the record makes it clear that the Defense Department 
believes it is important to actually get this changed so they 
can strengthen the Western forces in the Libyan Government.
    Now, I asked my staff to check with the Defense Department 
to understand why in the Department's view it is important to 
train Libyan officials in the United States, and if we assume 
that it is important, and I think everyone does, that we 
strengthen Western forces--I don't think anybody is against 
doing that--why would we have to do it here? Now, what we were 
told is that the training that would normally be done, let's 
talk about the pilots, has to be done under secure conditions, 
and that the simulators and training facilities that meet those 
security requirements are really only here, and that if the 
travel ban continues, the Defense Department would have to 
establish secure training facilities someplace else, which they 
haven't done, and they don't have the budget to do and/or the 
material to do. Is that your understanding? I guess I should 
ask you, Dr. Wehrey, is that your understanding of what the 
crux of the problem is here?
    Mr. Wehrey. Yes, ma'am. There is--I mean, there is really 
no facilities to do it. Obviously, in Libya, they are in 
disrepair, security conditions. So it would have to be done in 
the United States or at a third country. I mean, I visited some 
of these air bases, and there is just no place. There is no 
infrastructure and then, of course, the security issue.
    Ms. Lofgren. Now, Secretary Bersin, obviously, all of us 
want to have a safe country. We don't want anybody who would do 
harm to the United States to be admitted to the United States. 
There is no disagreement on that point, I don't think, among 
any Member of the Committee. The concerns that have been raised 
about our ability to adequately vet prospective Libyan trainees 
I think needs to be addressed directly. Do you think that the 
State Department, the Department of Defense, the Department of 
Homeland Security can adequately screen who we want to receive 
the training in the United States? Are we up to that task, do 
you think?
    Mr. Bersin. Ms. Lofgren, yes. In addition to that, there is 
the combined resources of the intelligence community, the 
National Counterterrorism Center, and the FBI and the 
Department of Justice.
    Ms. Lofgren. Now, how--can you explain the process that DHS 
would use to screen out potential bad actors from Libya who 
might want to come and receive training here but really aren't, 
they are not our side? How would you address that?
    Mr. Bersin. In two specific ways. First is the standard 
visa vetting process that takes place with regard to all 
foreigners who enter the United States, and that involves being 
checked against massive databases that are maintained by the 
United States Government. These include the Automated Biometric 
Identification System, containing 160 million fingerprints; the 
FBI Next Generation Identification System, which contains 76 
million criminal records; the consolidated, consular 
consolidated database maintained by the State Department that 
has 109 million photos of visa applicants; the Consular Lookout 
and Support System that contains 27 million records of people 
who have applied for and been rejected for visas.
    In addition, Ranking Member Lofgren, there is the Terrorist 
Screening Center activities, in which we are constantly 
screening visa applicants against to rule out people of high 
risk. That is just at the front end.
    With regard to specific people who would be applying to 
flight maintenance schools or flight operations schools, there 
is a special Transportation Security Administration security 
check that would both validate the schools to which they 
applied, as well as an additional security check, based on 
biometric and biographic information.
    With regard to those who would be seeking to participate in 
nuclear-related fields, there is a special program called the 
Visas Mantis program----
    Ms. Lofgren. Right.
    Mr. Bersin [continuing]. Which would involve very specific 
vetting and a security advisory opinion that is geared 
specifically to that. After people would come to the United 
States, there would be a monitoring of their activities through 
the SEVIS program----
    Ms. Lofgren. Right.
    Mr. Bersin. The Student and Exchange Visitor Program.
    Ms. Lofgren. That is pretty effective, yeah?.
    Mr. Bersin. And there are other layers of security I would 
be happy to go into.
    Ms. Lofgren. Well, I think--I see my time has expired. I 
will just mention something I mentioned to the Chairman that 
years ago, when I was a practitioner, before this ban was in 
place, I had occasion to meet someone from Libya who had a 
post-doctoral degree in nuclear physics, and he was getting 
offers from all over the world, I mean, for his own lab to go 
develop nuclear programs for other countries, and the Defense 
Department was quite interested that he not go to those other 
countries, and we ended up getting a national interest waiver 
so that that Libyan could not leave the country and eventually 
did become an American and became an employee of the Department 
of Defense. So it is important that we have our friends here. 
And blanket decisions will not allow us to make those kind of 
fine decisions. I mean, for example, the idea of doing a 
blanket prohibition on visas to Syria, I mean, we have got 
Christians who are fleeing Syria and who are seeking refuge in 
the United States. Surely we don't want to turn those people 
away. So I think it is important to use our decisionmaking in a 
way that serves American interests.
    Mr. Bersin. Ms. Lofgren, if I might, the Congress itself 
made that decision in the Enhanced Border Security and Visa 
Entry Reform Act of 2002 in the immediate aftermath of 9/11, 
when restrictions on issuance of visas to nonimmigrants from 
countries that are state sponsors of international terrorism 
did not go to the ban as a technique but rather insisted that 
there be judgments made case by case, visa by visa before 
entering. And so this a--this has defined the way in which we 
approach this matter.
    Ms. Lofgren. Thank you, Mr. Chairman. My time has expired.
    Mr. Gowdy. I thank the gentlelady from California.
    And the Chair would now recognize the gentleman from Utah, 
the Chairman of the OGR Subcommittee, Mr. Chaffetz.
    Mr. Chaffetz. I thank the Chairman.
    Mr. Bersin, what is the driving need to have a Libyan 
national trained on nuclear sciences?
    Mr. Bersin. Mr. Chairman, there are two policy judgments 
that are basically involved here. One had to do with the 
desirability of the engagement and the need to engage with 
those elements of the Libyan Government with whom our Defense 
Department and State----
    Mr. Chaffetz. But they don't have any nuclear power plants 
there.
    Mr. Bersin. That is a decision that was made, a policy 
decision that was made, and I can't--I can point you to the 
letters on which I relied and the points that were made in 
those letters, but for reasons that are not clear to me, 
representatives of the Defense Department and the State 
Department are not here to respond.
    Mr. Chaffetz. So you are going to provide to both the 
Judiciary and the Oversight Committee all the letters 
articulating the need for Libyan nationals to be trained on 
nuclear sciences as well as aviation?
    Mr. Bersin. The ones that I have seen, yes, sir.
    Mr. Chaffetz. And when will you provide those?
    Mr. Bersin. You have the two letters plus the third that 
was filed this week that made reference to that request.
    Mr. Chaffetz. I still don't understand for this Committee 
why the driving need to train Libyan nationals on the nuclear 
sciences.
    Let me also ask you, Mr. Bersin, why not issue a public 
notice and allow for a comment period?
    Mr. Bersin. As you know, Mr. Chairman, in the letter from 
Assistant Secretary de Vallance to this Committee, the decision 
on whether or not to apply the foreign policy exception which 
would preclude the need for a hearing is a decision that is 
still under consideration, and no decision has been made, and 
the matter will be determined in due course.
    Mr. Chaffetz. I know it is not required in the regulation. 
Why not do it?
    Mr. Bersin. The matter is being considered, and Secretary--
--
    Mr. Chaffetz. But you listed out all the different agencies 
that are allowing comment period. Why not allow the American 
people? Why not allow the United States Congress? Why exclude 
them?
    Mr. Bersin. Mr. Chairman----
    Mr. Chaffetz. What is the harm?
    Mr. Bersin. I have no official authority to make the 
decision. I hear you, and I don't disagree personally, but my 
personal view is unimportant.
    Mr. Chaffetz. Who makes that decision?
    Mr. Bersin. The Secretary would make it in consultation 
with----
    Mr. Chaffetz. What sort of consultation have you been in 
with the White House?
    Mr. Bersin. The National Security Council is aware of the 
request that was made by the Defense Department, the State 
Department, and is also aware that DHS has decided that given 
that policy direction, we can adequately and will adequately 
protect the American people.
    Mr. Chaffetz. What is your viewpoint of the status, what is 
it like in Libya right now?
    Mr. Bersin. Libya is, as Dr. Wehrey described it, an 
unstable, dangerous, and insecure place. There is no question 
about that. That does not mean, from the standpoint of the 
Defense Department and the State Department, that we should 
stand back and not work with those people within the government 
that we can work with. Normalization does not mean secure nor 
does it mean peaceful nor does it mean halcyon; it means that 
we will engage.
    Mr. Chaffetz. So when we are doing these visa applications, 
you listed out a number of things that we look at in order to 
assess somebody's viability, and you talked about the big 
databases we have. How many Libyan criminal records do we have 
in our database?
    Mr. Bersin. Inside our databases, the FBI would not 
maintain criminal records unless it was collected as part of a 
previous case.
    Mr. Chaffetz. So the answer is zero. How many of----
    Mr. Bersin. It is not zero. Respectfully, sir, it is not 
zero. We would have to find out.
    Mr. Chaffetz. When will you give me that number?
    Mr. Bersin. We will make inquiry because I could tell you 
as a former Federal prosecutor, if there were Libyan criminal 
cases, we would have those records in our database.
    Mr. Chaffetz. I am just wondering when you are going to 
give those to the Committee. You said you have those, you can 
get those.
    Mr. Bersin. I will make inquiry. I don't have them 
available now.
    Mr. Chaffetz. How many fingerprints, photos, terrorist 
screening centers? I mean, part of the issue here is the fact 
that you don't have a fully functional host nation government. 
We have to deal with the fact that after a 40-year regime there 
under Muammar Qadhafi, they are not a functioning country at 
this point. You can't get to--have you ever been to Libya?
    Mr. Bersin. I have not, sir.
    Mr. Chaffetz. As a Member of Congress I have been there 
twice. I couldn't even go to the eastern part of the country. 
And so if we are trying to assess an individual who comes from 
Darnah or pick anyplace, how are we going to assess that? We 
can't even get there, let alone be able to work with the host 
nation government. There is no host nation government to work 
with.
    Mr. Bersin. I understand that, sir, and I understand that 
many of our diplomats and particularly our soldiers go to 
places that are very dangerous. You could add to the example of 
Libya what is going on in Egypt today on occasions, what is 
going on in Yemen, what is going on as our soldiers are under 
attack in Afghanistan.
    Mr. Chaffetz. It doesn't excuse or explain the idea that 
Libya is a very unique case. I see no urgency to try to get 
this through, particularly as it relates to the nuclear 
sciences. I wish the Administration would work with Congress. I 
think we could probably figure something out. But what the 
Administration has done is worked with a whole host of 
agencies, except Congress. We send you a letter. Chairman 
Goodlatte sends you a letter. No response. And then we get some 
partial information back, didn't answer all of the questions, 
and we have got to yank you up here for a hearing.
    Mr. Bersin. May I say, in response to that, while we may 
disagree on many matters this afternoon, we do not disagree on 
the inexcusability of that late response. And I want to 
reiterate the apology that was contained in Secretary de 
Vallance's letter, and I know because it was included, and you 
have been informed that Secretary Jeh Johnson, now in his 100th 
day, together with his chief of staff has put into place 
procedures that would not lead to that result. I, again, 
apologize for that.
    Mr. Chaffetz. I appreciate your sincerity. I am 0 for 2 
with him so far, but I do appreciate his leadership. I am glad 
he is in that role, look forward to working with him.
    Yield back.
    Mr. Gowdy. I thank the gentleman from Utah.
    And the Chair would now recognize the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. I basically think Ms. Lofgren covered most of 
the ground on this perspective, but Secretary Bersin let me 
just ask you, with respect to a review from an individual 
coming from Afghanistan to the United States, would their 
security check be the same as, less than, or more intensive 
than one for proposed process for Libyans?
    Mr. Bersin. It would be the same unless there were special 
condition, and then it would be the additional security checks 
and layers that would be applied.
    Mr. Tierney. How about Yemen?
    Mr. Bersin. Same, same answer.
    Mr. Tierney. How about Somalia?
    Mr. Bersin. Same answer.
    Mr. Tierney. Sudan?
    Mr. Bersin. Same answer.
    Mr. Tierney. Djibouti?
    Mr. Bersin. Same.
    Mr. Tierney. Thank you.
    Yield back, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Massachusetts. The 
Chair would now recognize himself.
    Mr. Bersin, I want to start by thanking you for your 
service as a Federal prosecutor and tell you what you have 
probably already picked up on, which is that I am a 
simpleminded guy, and I find myself in some instances having to 
piggyback on the equally simpleminded questions of Mr. 
Chaffetz.
    It strikes me that the prohibition would not have been put 
in place except for a desire to be punitive whenever the Reagan 
administration put it in place, right? It was designed and 
calculated to be punitive. So the lifting of it would be a 
reward. Is that fair?
    Mr. Bersin. Well, I would never refer to the Chairman as 
simpleminded.
    Mr. Gowdy. Everybody else does, it is okay.
    Mr. Bersin. But the decision, sir, respectfully, was 
because circumstances have changed and because after 9/11, we 
have a completely different approach to the way in which we 
look at how we vet people coming into this country.
    Mr. Gowdy. I get that, but your position would be 
buttressed if this move were made more contemporaneous with 9/
11. It has been quite some time since 9/11, and the move has 
not yet been made.
    Mr. Bersin. Well, Mr. Chairman, the fact is that the 
engagement with Libya began in the Bush administration; 2003 
and 2004 is when Libya renounced terrorism and renounced its 
use of weapons. President Bush sent an ambassador to Tripoli. 
In 2006, it was the Bush administration that removed Libya from 
the list of state sponsors of terrorism.
    Mr. Gowdy. I am with you. And Mr. Chaffetz said that part 
of his frustration was that there had not been a lot of 
consultation with Congress, which is not your fault, but 
nonetheless that is his perception. I want to tell you what my 
perception is because you seem like somebody I would be very 
pleased to have a conversation with about this. It strikes me 
that when you talk about normalization or what kind of 
countries, to use your quote, Libyan Government with whom we 
could do business, that was a quote that you used in response 
to another answer--question. And it strikes me that a 
government with whom I would be interested in doing business 
would be a government that has some semblance of a civil or 
criminal justice system. So I understand that some of my 
colleagues on the other side of the aisle don't want to go back 
to Benghazi, but it is tough. It would be tough in my district 
to explain to people why a government that can't help us make a 
single solitary arrest in 18 months or a prosecution would be a 
government that we would trust to vet applicants to come to 
this country. How is that analysis flawed?
    Mr. Bersin. Chairman, we don't trust the Libyans nor do we 
trust any other country to do the vetting that we are required 
to do under the law, and we do that. When we can, through the 
intelligence community or otherwise, receive information on 
people because of inquiries that are made, we take it, but this 
is a responsibility of our government to do this.
    With regard to the state, I admit and concur with you that 
Libya is in a very unstable place. Dr. Wehrey, I think, 
outlined the considerations quite directly. But I can tell you 
as a vice president of INTERPOL, the international criminal 
police organization, that in fact there are many countries 
around the world, not only the ones that Mr. Tierney mentioned, 
but many countries that don't have the rule of law established. 
We do everything we can to help build the capacity for that, 
but it is a fact of life so that when we invite someone to 
enter this country, it has got to be based on capacity and 
knowledge and data that we have.
    Mr. Gowdy. Well, I am not disagreeing with you there, but I 
do believe that having a normalized, whatever that definition 
may be, I am not a diplomat, but whatever that definition is, a 
normalized relationship between our country and another country 
is a reward or a benefit to that country.
    It may also be a reward and a benefit to our country, but I 
would imagine that there are countries that want to have a 
better relationship with ours, and I don't think it is asking 
too much that we tell that country, this is what we would like 
to see. And Benghazi leaps to mind. There was a schoolteacher 
that was murdered in Benghazi. It didn't get nearly the 
attention that our diplomats and our Stevens and Smith and 
Doherty and Woods got, but a teacher named Ronnie Smith was 
murdered in Benghazi. There have been no arrests. I have heard 
nothing about it. If you are going to seek a reward from this 
government, which is how I view this, then I would expect to 
see something on your behalf, and a stable criminal justice 
system, which results in arrest and prosecutions, would be 
something I would be interested in.
    Mr. Bersin. Mr. Chairman, first of all, I would also 
welcome the opportunity to discuss this with you in the 
aftermath of the hearing. With regard to the suggestion you 
just made, I urge you to take that up with the State Department 
in a similar kind of discussion.
    Mr. Gowdy. Oh, excuse me. The Chair would now recognize Ms. 
Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    Doctor, I am glad you are here today because it would 
appear that you have firsthand knowledge of the situation in 
Libya and have knowledge from a military perspective training, 
why training Libyans may further security goals. What is your 
military expertise, and how did that lead you to your 
understanding of U.S.-Libya military relationships?
    Mr. Wehrey. Nineteen years in the Air Force, 9 years active 
duty, 10 years in the Reserves. I am what is called a foreign 
area officer. I speak Arabic. I served for 2 and a half months 
in Libya as the acting chief of security cooperation, where I 
was assisting the active duty defense attache, essentially 
spearheading this nascent training effort in 2009 that included 
English language training to the Libyan military, C-130 
maintenance, so it gave me a sense of the Libyan military, 
their structure, their weaknesses, their shortcomings.
    Ms. Kelly. Okay. You seem to be arguing that in order to 
maintain security within Libya, the central government needs a 
strong airlift capability, and currently, the Libyans have 
minimal capability in that regard with both aging equipment and 
aging pilots. Is that correct?
    Mr. Wehrey. That is correct. We are talking about systems 
that have fallen into real disrepair throughout the sanctions 
era. They are legacy U.S. systems. The pilots are aging. They 
need these systems really to project the government's authority 
over a very expansive country, to include border control, an 
issue that the international community cares about, to include 
securing oil facilities in the far south of the country. The 
roads are in disrepair. So we are really talking about giving 
the government, the military, an essential military capability. 
And I should also add that the air force of Libya's 
institutions or of its military services is among the most 
coherent and most pro-Western elements in the country. I mean, 
Air Force officers defected en masse during the revolution, 
entire air bases went over to the rebel side. These are 
Western-oriented officers. They could not have gotten to where 
they are in Libya's military if they were extremists or 
Islamists. Qadhafi made sure of that, so----
    Ms. Kelly. So the airlift capabilities would help in 
maintaining security?
    Mr. Wehrey. Absolutely, yes.
    Ms. Kelly. And also you seem to be saying that in order to 
have a strong security force with airlift capabilities, DOD 
needs to be able to provide training to the Libyans. The 
current regulation CFR 214.5 is hampering that training. Is 
that accurate?
    Mr. Wehrey. That is accurate, yes.
    Ms. Kelly. Okay. And can the Department of Defense 
sufficiently train Libyans in Libya do you think?
    Mr. Wehrey. I believe they can. I mean, obviously, this is 
an international effort as well. We have to remember that many 
of our allies have also committed to helping Libya's military, 
the Turks, the British, the Italians, the U.N. is heavily 
involved, so it is really an international effort, and the 
Libyans I think welcome U.S. expertise, and they want this 
training.
    Ms. Kelly. So do you feel like they need to come to the 
U.S. for training or not necessarily, or there are practical 
limitations of training Libyans in Libya?
    Mr. Wehrey. Well, again, I think that is a question for the 
Department of Defense. My understanding, as was mentioned, that 
there are a number of cost issues and practicalities to having 
this training at a third country outside of Libya. Certainly it 
would be easier and more efficient to have it in the United 
States.
    Ms. Kelly. Thank you.
    I yield back.
    Mr. Gowdy. I thank the gentlelady from Illinois.
    The Chair would now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman, and thank you for this 
hearing and the testimony of the witnesses here today.
    And I would turn first to Dr. Wehrey and just inquire, your 
last trip into Libya was November 2013, and you talked about 
the presence of militia there. Hard to distinguish whether they 
were Islamic extremists or whether they were from other 
entities. Does the government of Libya have a full military and 
security presence in Benghazi?
    Mr. Wehrey. They have a marginal presence. They have a 
special forces unit there. They have infantry. They do have 
regular Army units. I mean, I visited the base of a Libyan 
military unit there in Benghazi. The problem is they are ill-
equipped. They lack training. They lack essential 
communications. So they are competing with these other 
militias, so the way they control the city is by, in some 
sense, cooperating with these militias, and they can't push too 
hard against them.
    Mr. King. Okay. Somewhat like Beirut then, would that be 
similar? Have you traveled there?
    Mr. Wehrey. It is a very, I think, rough and I think, 
frankly, crude analogy. I mean, you do have----
    Mr. King. With Hezbollah standing on the streets in Beirut 
along with--okay, I will just skip away from that, and we will 
focus on Benghazi for a moment. Do government security 
personnel, are they, do they openly patrol the streets?
    Mr. Wehrey. In places like Tripoli, yes.
    Mr. King. Benghazi.
    Mr. Wehrey. Yes, and in Benghazi, they do. When I went to 
Benghazi, there were government military personnel at every 
checkpoint. They were out in force.
    Mr. King. Where?
    Mr. Wehrey. The government has made an effort with what it 
has to patrol the streets, and I visited the country four times 
since the revolution, and in each visit, I have seen more and 
more uniformed police and military on the streets and less and 
less informal militias, technicals.
    Mr. King. Tell me about your security detail there in 
Benghazi.
    Mr. Wehrey. I am sorry?
    Mr. King. Your security detail in Benghazi, did you wear a 
bulletproof vest or helmet?
    Mr. Wehrey. I did not have a security detail.
    Mr. King. You walked down the streets----
    Mr. Wehrey. Yes.
    Mr. King. And you were anonymous enough that you didn't 
fear for your life?
    Mr. Wehrey. Yes.
    Mr. King. Okay. What about the operation of militia or, 
say, Islamic extremism in places like Tripoli that might come 
from places like Benghazi, can you tell us about the 
instability in Tripoli?
    Mr. Wehrey. It is not really an issue in Tripoli. Again, 
the Islamist presence is primarily or the radical Islamist 
presence is primarily in the east, in Darnah.
    Mr. King. Didn't they once circle the parliament and shut 
down the parliament in Tripoli, and didn't that force come from 
Benghazi and not----
    Mr. Wehrey. Part of it came from Benghazi. Part of it was 
from Misrata. It was actually a diverse coalition of interests. 
There were people from the south, people from the west. I spoke 
to many of these individuals about what they wanted. I actually 
talked to them about what they wanted, and they were not doing 
it out of an Islamic cause. They were pressing the government 
for certain infrastructural requirements. They believed they 
needed to use force. It was not an Islamic takeover of the 
parliament.
    Mr. King. Just I appreciate you willing to take this risk, 
not the risk of testifying before Congress, that is relatively 
safe, but walking the streets of Benghazi is not. And I would 
reflect upon after hearing the testimony here that this is a 
difficult question. We want to help stand up a security force 
and detail in Libya that will be our friend and our ally that 
can project force into all of Libya and perhaps beyond if 
called upon to do that. I hear the testimony that if we are 
going to have a Libyan Air Force, we need to have personnel 
that are trained to take care of the maintenance on that and to 
get that Air Force in the air, but it is not practical to train 
them in Libya, and I don't know who has got the best answer to 
that question, but I would turn perhaps to Mr. Bersin on that.
    Why is it not practical? Who testified to that? Was that 
you, Doctor? Who testified that it is not practical to train 
them in Libya?
    Mr. Wehrey. I did, sir.
    Mr. King. Okay. Then I would direct the question to you, 
Doctor, please.
    Mr. Wehrey. Well, again, I would defer the ultimate answer 
to that to the Department of Defense. I mean, they do the 
assessments, but my understanding is there is very--I mean, the 
actual air bases are in a state of disrepair. There are certain 
air bases and certain facilities that are, in fact, under the 
control of militias, they have not been turned over. So have 
the armories. Something I didn't mention was the fact that if 
you put U.S. personnel, boots on the ground, contractors, you 
introduce a dynamic I think that could undermine a lot of the 
goodwill that Libyans feel toward the United States right now.
    Mr. King. Okay. Ms. Kephart, could you respond to that same 
question, please? I watch my clock ticking down here.
    Ms. Kephart. Could--the last part of your question was the 
practicalities of training the Libyans here in the United 
States? Yes?
    Mr. King. Versus that in Libya, yes.
    Ms. Kephart. Right. I think the biggest problem you have is 
you have got an incredibly--you have got no infrastructure 
really with the government right now that can provide border 
security in Libya, so you really don't know who your applicants 
are going to be. I think the infusion of a lack of intelligence 
about who you are actually dealing with is the big problem 
here. I think there is a concern about DOD and DOD being able 
to do its business, but the problem with this rule rescission 
is it is so broad that it could apply to anybody, and the 
militias that have been testified about here today all have 
access to those visas as well, so bringing them here creates 
the enforcement issues with immigration, as well as all the 
other security and counterterrorism issues that you all have 
heard about multiple times.
    Mr. King. I hear your testimony on that, and I appreciate 
it. I know the light is red, but I would ask unanimous consent 
to yield to the gentleman from Utah for 1 minute or to the 
Chairman at their choice. They are talking.
    Mr. Gowdy. Will this be in lieu of a second round would be 
my question to the gentleman from Utah?
    Mr. Chaffetz. I would like to simply make a point if my 
colleagues are okay with that.
    I think they are overstating the security situation in 
Benghazi and Libya. I just wanted to inject in here as you are 
talking about what it is like in Benghazi, let's remember that 
Libya's first post-Qadhafi prosecutor was shot and killed, 
let's also understand that the head of Libya's military police 
was assassinated in Benghazi in October, let's remember that 
our U.S. SEALs had to board a ship that had gone into the port 
there in eastern Libya. I mean, we are having to deploy SEALs 
to go over and take care of business over there, and for us to 
suggest that, hey, it is just getting better, we see a few more 
police out there--can anybody here name who is the prime 
minister of Libya? You can't because he had to flee. This place 
is falling apart. The military, the militias have over 8,000 
people in prisons. You have got another town in Libya where 
they had 40,000 people had to leave. You had an Indian doctor 
who was assassinated. Consequently, according to press reports, 
1,600 doctors have left the country. This place is falling 
apart, and we are over here trying to figure out how to get 
more Libyans into the United States to be trained on nuclear 
sciences. It doesn't add up.
    Yield back.
    Mr. Gowdy. I thank the gentleman from Iowa and the 
gentleman from Utah.
    And the Chair would now recognize the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you.
    First of all, let me thank both Committees for joining 
together on an important question, and I believe that we do 
ourselves a disservice to come to a hearing like this with a 
closed mind.
    We recognize that part of the engine behind the decision, 
Mr. Bersin, is a reality of the small world in which we live, 
and the question is, do we turn our backs and utilize the 
turtle theory, or do we answer questions from Members of 
Congress, legitimate questions, about breach of security that 
would result in a terrorist act on our soil? I think that is 
what my friend from Utah is suggesting, that we would allow 
individuals into the United States unchecked and that they 
would perpetrate horrors because, one, they would not be 
tracked. So let me say to you that I think the premise of this 
repeal of this particular regulation has value, but I do think, 
as someone who has been in the region, is on Homeland Security, 
I think we have just seen each other recently, I recognize that 
our ultimate responsibility, I just got through interviewing on 
the question of Fort Hood and the issue of whether we can 
protect our soldiers on domestic soil. Our soldiers are not 
supposed to be armed. We are a civilian government. But whether 
or not we can protect against this potential of happening.
    So let me ask this question to you: The title of the 
hearing is provocative. It says that we are going to be 
training nuclear scientists, and that raises an ugly head that 
we are going to be training people who will use nuclear bombs 
to implode. Why don't you tell us what you think the impact of 
such a regulation will be? Is it your goal to bring over 
nuclear scientists? Can you kind of describe what kind of 
training and the level that individuals will be at, and then I 
would like to ask Mr. Wehrey--am I pronouncing your name right, 
sir?
    Mr. Wehrey. Yes.
    Ms. Jackson Lee. All right. You were on the ground, and I 
want you, in fact both of you to answer the question that I 
think has been asked is, what will be our checks and balances? 
What will be our screening process? And I ask Mr. Bersin a 
larger question of the types of individuals that will come 
over. Let me yield at this point.
    Mr. Bersin. Ms. Jackson Lee, the people that would be 
selected would not be a casual process. The Defense Department 
would select and vet those people who they would recommend 
apply for visas.
    Ms. Jackson Lee. The Defense Department?
    Mr. Bersin. That is correct. At that point, the whole 
panoply of screening mechanisms that I described in my 
testimony would apply to these particular individuals. So this 
would be a very carefully monitored and----
    Ms. Jackson Lee. Would this be a crowd of thousands?
    Mr. Bersin. No, ma'am.
    Ms. Jackson Lee. And so let's just say if we framed it in 
that way, you would expect what? Because we have done training 
in Egypt, remember that was a longstanding relationship that we 
had with the Egyptian military, of course, over the period of 
time, and certain other countries in the Mideast, we have the 
Saudis trained over here. So what level of size are we talking 
about?
    Mr. Bersin. I am unable to give you a specific number, but 
you are talking about a manageable group, not numbering in the 
hundreds or the thousands, that would be presumably affected by 
this.
    Ms. Jackson Lee. And what would be the focus of tracking or 
maintaining the whereabouts of these individuals?
    Mr. Bersin. There are, in addition to the security measures 
that would be applied and the vetting procedures that would be 
applied before they would be permitted entry, there is a 
process called the SEVIS, which is the Student Exchange Visitor 
Information System, that would actually require that a school 
continually update the status of that particular element. In 
addition, there would be the so-called Visas Mantis program 
that would be an especially rigorous security advisory opinion 
applied to those individuals.
    Ms. Jackson Lee. Well, let me just say this, and I 
appreciate that. Being on Homeland Security, I know some of the 
fractures in that system. I would want the Department of 
Defense to commit to a collaboration with Homeland Security for 
a definitive way of respecting the dignity of these 
individuals, but even beyond the SEVIS process, because you are 
leaving it to colleges, and I think it would be very important. 
I think the process is important.
    Let me just ask this, are you specifically training people 
to be nuclear scientists? Are you calling them over and saying, 
I want you to be a nuclear scientist, to be a bomb thrower?
    Mr. Bersin. I am unable to identify any particular case and 
tell you what that particular person is, so----
    Ms. Jackson Lee. So it is not--the headline of the hearing 
says ``nuclear scientists.'' That is not the whole label of 
what you are doing?
    Mr. Bersin. We are certainly not bringing over someone who 
doesn't know anything about atomic or nuclear physics, I think 
that is a fair assumption.
    Mr. Chaffetz. Will the gentlewoman yield?
    Ms. Jackson Lee. I would be happy to yield if I could get--
if I have the Chairman's unanimous consent to allow me to have 
Mr. Wehrey answer my question and Mr. Bersin to just answer the 
question, I would be happy to yield, ask unanimous consent.
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. All right.
    Mr. Bersin, before I yield to the gentleman from Utah, what 
I was saying, Mr. Bersin, are you saying that you don't know if 
they are going to be that or you don't know the types of 
training or individuals, is that what you are saying?
    Mr. Bersin. I am not familiar with any specific application 
of people who have applied or who would apply or who the 
Defense Department may have identified as wanting to 
participate.
    Ms. Jackson Lee. Okay. So it is no glaring announcement 
that it has just these nuclear scientists. That is what I 
wanted to make sure. Thank you.
    Mr. Wehrey, and then I will yield to the gentleman. My 
question was on the idea--you have been on the ground, and the 
idea of the value of having Libyan, I will put the word 
students, but also the value of having them having some system 
of knowing who they are and where they are.
    Mr. Gowdy. You may answer as quickly as you can.
    Mr. Wehrey. That is absolutely essential, and I would defer 
to the Defense Department on that. I mean, they have to do the 
vetting. They have to do the screening. There are programs in 
place. My sense, again, I want to emphasize that this is about 
a partnership with a specific Libyan institution, the air 
force, that overwhelmingly has been pro-Western and supportive 
of U.S. objectives in that country.
    Ms. Jackson Lee. And you would support the importance of 
that?
    Mr. Wehrey. Absolutely, yes.
    Ms. Jackson Lee. I yield to the gentleman from Utah.
    Mr. Chaffetz. We are fine, thank you. I think we are----
    Ms. Jackson Lee. Oh, you are getting your own time?
    Mr. Chaffetz. Yes, thanks.
    Mr. Gowdy. Yes.
    Ms. Jackson Lee. Okay.
    Mr. Chairman, let me just thank you very much and indicate 
in conclusion that we must be careful, but what we are trying 
to do is reestablish government in Libya. That is of concern to 
the United States homeland security, national security. And I 
think we have to be tough, but I think the door has to be 
opened carefully, cautiously, but we have to be responsible or 
responsive to trying to reconstruct a government. If that 
helps, we should do so.
    I yield back.
    Mr. Gowdy. I thank the gentlelady from Texas.
    The Chair will now recognize himself and the gentlelady 
from California for 5 minutes for closing remarks. I will go 
briefly and then yield to the gentleman from Utah.
    Dr. Wehrey, I want to thank you for your service to our 
military. I want to thank you, Mr. Chaparro, and you, Ms. 
Kephart, for your service to law enforcement. I know yours, I 
believe, was active, and you were with the 9/11 Commission, and 
I want to thank you for your service as a Federal prosecutor, 
which is very near and dear to my heart, and for your 
collegiality and expertise and comity, with a T, among 
yourselves and with the Members of the Committee.
    And Mr. Bersin, I would like to take you up on your 
opportunity to meet privately at your convenience because if 
there is a leverage point by which we can impress upon the 
folks in Libya the importance of the civil and criminal justice 
system and bringing those to bear, not just in Benghazi but 
also the teacher, I would love to talk to you about that.
    And with that, I would yield to the gentleman from Utah.
    Mr. Chaffetz. I thank you, I thank all the panelists here, 
but to address what the gentlewoman from Texas brought up, the 
reason it is bringing nuclear scientists into the title of this 
hearing is the fact that based on what--during the Reagan 
administration did in 1983, the Department of Homeland Security 
is looking to rescind a prohibition of bringing Libyan 
nationals who are engaged in or seeking to obtain studies or 
training in aviation maintenance, flight operations, or nuclear 
related fields. That is what they are trying to rescind. The 
prohibition is there right now, and what is very telling about 
the answer is you know of no person, there is not one person 
that you are aware of that is trying to come here to get 
trained on nuclear sciences. Yet we are spending all this time 
and energy, all this effort to try to rescind it, and again, it 
begs the question that it sounds like it is best answered by 
the Department of Defense and the Department of State as to the 
need, the driving need to bring a Libyan national to the United 
States to train on nuclear sciences. That is what is mystifying 
to me.
    I would hope that you would carry back to the senior 
management, including the White House, but certainly within 
Homeland Security, I think it would be prudent to allow public 
comment and to allow the public notice, and then public comment 
and to better inform Congress of what you are trying to do. If 
there is a driving need, then I want to hear it, but we have 
gone through this entire hearing, and I don't think anybody has 
adequately explained in this hearing on why we need to train 
Libyan nationals on nuclear sciences. It just mystifies me.
    Ms. Jackson Lee. Would you yield just for a moment?
    Mr. Chaffetz. Sure.
    Ms. Jackson Lee. This is just a moment. You have just said 
what all of us are saying, which is the State Department I 
believe is doing well and I think the Defense is doing well, is 
that they will generate answers to these questions that you 
have, and we should allow those answers, and finally you are 
reading a 30-year commentary by, under President Reagan. The 
gentleman from the State Department indicated that he has no 
known knowledge of the level of individuals that will come. I 
think we are really recognizing that we have to do something to 
rebuild that government, and the United States is very much a 
player in that. I yield back.
    Mr. Chaffetz. Reclaiming my time. I don't think bringing 
people in to train them on nuclear sciences when they have no 
nuclear power plants is where we would start. We need some 
basic rule of law. The gentleman is from the Department of 
Homeland Security, not from the Department of State. I would 
also ask--and part of the reason we are having this hearing 
here today is that Chairman Goodlatte and I did issue a letter 
asking for a response and explanation, of which we didn't get 
an answer, and I appreciate the gentleman's apology to that 
effect.
    I would like to ask Mr. Bersin, under Executive Order 
12866, the Department of Homeland Security is required to 
provide the Office of Information and Regulatory Affairs 
numerous assessments regarding needs, costs, and benefits among 
other items in writing regarding to this rescission. Have you 
done that?
    Mr. Bersin. I would have to confirm that. I have seen OMB, 
Office of Management and Budget, documents to that effect, so I 
believe so, but I would have to confirm that.
    Mr. Chaffetz. Would you commit to providing those to this 
Committee, these Committees?
    Mr. Bersin. Yes, sir.
    Mr. Chaffetz. And when would we--what is a reasonable----
    Mr. Bersin. I should say, because I am, I was a fair lawyer 
at one point, subject to whatever privileges.
    Mr. Chaffetz. Fair and lawyer are not very often used in 
the same sentence, but I get what you are saying.
    I remind the Chairman from South Carolina that I am not an 
attorney.
    Mr. Gowdy. Quit apologizing.
    Mr. Chaffetz. I thought I was bragging. But we would 
certainly appreciate it if you would provide those to these 
Committees, and I do appreciate your perspectives on this. We 
obviously care about this and would like more information. 
Thank you.
    Yield back.
    Mr. Gowdy. I thank the gentleman from Utah.
    I now recognize the gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman. I will be brief.
    I do think that we have managed to surface some useful 
information here today. You know, I think key to this issue is 
whether we are going to use the tools available to us to 
benefit our country or whether we are just going to use a blunt 
instrument that could do harm to our country. That is really 
the question before us. And when I think about, you know, 
normalized relations doesn't mean that you have a relationship 
with a country that is normal. You think about the countries 
that we maintain some kind of connection with when it is 
advantageous to us, you know. In Colombia, they assassinated 
the supreme court. You know, the drug cartels tried to take 
over the entire country, but we did not say no one from 
Colombia can ever come to the U.S., even though they were, I 
mean, a basket case at the time because, you know, there were 
things that we needed to do, and in fact, we have helped 
Colombia turn the corner and defeat the drug cartels. And part 
of that was training their people, and you know, it is a 
success story that is not over with yet. But I mean, they are 
in much better shape than they were, and I think this, 
hopefully, could be a similar situation.
    I do think that it is a legitimate question of why would we 
have study in the nuclear field. I think it is worth pointing 
out that Libya as a nuclear, a former nuclear power, has 
weapons scientists there. They have nuclear weapons scientists 
in the country, or they did at one time. Historically, we have 
sought to take weapons scientists from potential enemies and 
teach them something useful to do, other than weapons 
scientists, because if that is all you know how to do, that 
skill is for sale in the world, and if you have something 
useful to do with that level of information, it is much safer 
for the United States.
    I would note also that we are not asking to repeal the 
deemed export rule, and for those of you who are not aware of 
this, the deemed export rule means that if you have got 
sensitive information and you have got a foreign national, they 
can't actually study that because it is deemed that you are 
exporting that sensitive information to a nation, hence the 
name deemed export rule. So this would seem to preclude, I 
think, bringing in new scientists to learn how to make new 
weapons. But you know, I think we would like to follow up with 
the Department kind of what the intentions are and if it really 
matches what I have described here, which I think so far as I 
have been able to learn, it does.
    And Mr. Bersin, let me----
    Mr. Bersin. Ranking Member Lofgren, I want to point out 
that after we have been talking about the Department of State 
and the Department of Defense, but actually, the Department of 
Energy actually also weighed in for precisely the reason you 
suggest.
    Ms. Lofgren. Right.
    Mr. Bersin. After, and I would have to get you the date 
when this began, but they started a Libyan scientific, 
scientist engagement program precisely on this notion that 
there are nuclear scientists in Libya as a result of the 
Qadhafi years, and it is in our interest to see that they get 
gainful employment that is not hostile to us.
    Ms. Lofgren. Right.
    With that, Mr. Chairman, I thank you, and I would yield 
back my time and go meet the people who are amassing in my 
office for a meeting.
    Mr. Gowdy. I thank the gentlelady from California.
    Before we adjourn, I would move, I would ask unanimous 
consent to move two things in the record. One is the statement 
from our colleague, Mr. Bentivolio, and the other is an article 
by Patrick Cockburn entitled, ``Three Years After Gaddafi, 
Libya is Imploding Into Chaos and Violence.''
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________

    Mr. Gowdy. With that, this concludes today's hearing.
    Thanks to all the witnesses for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional questions for the record for the witnesses 
or additional materials for the record.
    With that, this hearing is adjourned.
    [Whereupon, at 5:09 p.m., the Subcommittees were 
adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of the Honorable Trey Gowdy, a Representative in 
 Congress from the State of South Carolina, and Chairman, Subcommittee 
     on Immigration and Border Security, Committee on the Judiciary
    The Administration is moving to lift the longstanding prohibition 
against Libyans entering the United States to work in aviation 
maintenance, flight operations, or to study or train in nuclear-related 
fields.
    Despite concerns expressed last November by Rep. Chaffetz and 
Chairman Goodlatte, DHS moved forward with this change and sent the 
draft final regulation to OMB. Under the terms of the regulation, the 
removal of the prohibition will go into effect without prior notice and 
comment. We would have to trust the Libyan Government and 
Administration to appropriately vet which Libyans would be allowed to 
learn to fly planes and study nuclear technology.
    The current prohibition was put into place in the early 1980s after 
a series of terrorist incidents involving Libyan nationals. On December 
2, 1979, a mob attacked and burned the U.S. Embassy in Tripoli, and on 
December 29, 1979, the United States designated Libya as a state 
sponsor of terrorism.
    In order to protect Americans, on March 11, 1983, the Reagan 
administration implemented this rule to prohibit Libyan nationals, or 
other foreign nationals acting on behalf of a Libyan entity, from 
obtaining certain immigration benefits for the purpose of engaging in 
or seeking to obtain aviation maintenance, flight operations, or 
nuclear-related studies or training.
    While we have hope for a democratic Libya, the question we must 
consider today is: has enough changed to lift this longstanding ban? 
Why now? Is post-Revolutionary Libya secure enough to justify the 
change?
    Let's consider some recent events:
    The National Transitional Council has struggled to govern Libya 
effectively since the fall of Qaddafi.
    The majority of territory outside Tripoli has fallen under the 
control of armed militias that have refused to disarm.
    Just three weeks ago, on March 12, 2014, the Libyan Prime Minister 
fled after parliament voted him out of office.
    Militias based in western Libya, notorious for their violence and 
independence, have launched an offensive against the eastern rebels in 
what could be the opening shots in a civil war between western and 
eastern Libya. Without a central government with any real power, Libya 
may be falling apart.
    Only two weeks ago, Libya acknowledged for the first time that 
``terrorist groups'' were behind dozens of attacks against security 
services. The government issued a statement on March 19 saying: 
``Benghazi and other cities are facing a terrorist war waged by Libyan 
and foreign elements who have hostile, evil agendas.''
    On March 20, Libya's government called for international help to 
fight terrorism that is threatening internal stability in the country. 
On the same day, a missile was launched at the Tripoli Airport runway 
shutting down the airport.
    And finally, the head of Libya's military police was assassinated 
in Benghazi in October while Libya's first post-Gaddafi prosecutor 
general was shot dead on February 8, 2013.
    Unfortunately, these new reports indicate that the militias are 
getting stronger, not weaker. Why is the Administration proposing to 
lift a 30-year ban on Libyans coming to the US to train as nuclear 
scientists now?
    The administration's draft regulation justifies the change because 
the US relationship with Libya has been ``normalized.''
    In November my colleagues Rep Chaffetz and Chairman Goodlatte wrote 
to Acting Homeland Security Secretary Beers about this rule change, and 
spelled out specifically the violent threats and actions against 
American anti-terrorism operations in the country.
    And we cannot talk about the Libyan-American relationship without 
acknowledging the attack against the diplomatic post in Benghazi 
resulting in the murder of four Americans. How is this relationship 
``normalized'' when our Ambassador was murdered in Benghazi 18 months 
ago? And not one single person has been arrested, prosecuted or brought 
to justice.
    It seems unjustifiable then, to rescind a 30 year rule at this 
time. Why are we willing to risk, no matter the likelihood, chancing 
Libyan extremists and terrorists to come here to essentially learn the 
skills to commit acts of terror? Why? Why now? What has changed? And 
the burden of advocating for a change in the status quo lies with the 
administration.

                                <F-dash>

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
     on Immigration and Border Security, Committee on the Judiciary
    Based on the letters that the Majority has sent to DHS, as well as 
their opening statements today, I believe their concerns can be 
summarized as follows: the Libyan government is fragile and there are 
extremist elements in the region that would do us harm, so we can't 
lift the visa restriction because people might somehow harm us.
    This argument, however, is entirely illogical.
    First, as the Department of Defense--which initiated the request to 
rescind the visa restriction in the first place--makes clear, the whole 
point of lifting the visa restriction is to help the Libyan government 
defeat those very extremists. Members on both sides of the aisle--
including Republican Senators John McCain, Lindsey Graham, and Saxby 
Chambliss--have recognized the critical importance of helping the new 
democratically elected Libyan government secure itself against militant 
extremism in the region.
    But the visa restriction stands in the way. Because the restriction 
affects all Libyans, it means we can't even train the pro-Western 
forces within the Libyan Air Force on the aircraft they need to secure 
their own country against extremist forces. The Libyan government's 
ability to fight such forces depends on being able to move troops and 
equipment throughout the country. And the country currently uses 
Lockheed C-130 military transport planes and Boeing CH-47 cargo 
helicopters to do so.
    But according to the Defense Department, that fleet is aging and 
needs repair and replacement, and many more pilots and flight crew need 
to be trained. There are proposals to buy additional aircraft and parts 
from U.S. companies and provide training to pilots and flight crew, but 
the visa restriction stands in the way of those deals.
    The Members on the other side of the aisle will likely raise the 
unfortunate attacks in Benghazi repeatedly at this hearing today. But 
that event actually underscores why we should lift the visa 
restriction.
    On the night of the attack, it was one of those very same Lockheed 
C-130 transport planes that the Libyan government used to rescue and 
evacuate the surviving consular personnel at the U.S. compound in 
Benghazi. Rather than used against us, that plane helped Americans 
survive.
    Will my colleagues on the other side of the aisle nevertheless 
raise the Benghazi attack, as well as other terrorist incidents within 
Libya, as grounds for keeping the visa restriction in place? We must 
keep in mind that there is a difference between the extremist forces 
behind these incidents and the pro-Western Libyan military that is 
trying to defeat them.
    And that's the point of lifting the visa restriction. Like my 
Majority colleagues, it simply does not differentiate between the 
Libyan forces we are trying to help and the forces we are trying to 
defeat. It bars friend and foe alike, and that just isn't smart policy.
    This gets us to the second big reason we should rescind the visa 
restriction. It simply isn't needed to keep America safe from harm.
    We must bear in mind that the 30-year-old Libyan visa restriction 
is the only such country-specific visa ban of its kind. It is an 
anachronistic relic of a by-gone era.
    If a ban were necessary with respect to Libya--which is not a 
designated state sponsor of terrorism since the Bush Administration 
removed them from the list in 2006--wouldn't it be even more necessary 
with respect to countries that are actually designated as state 
sponsors of terrorism?
    But such bans don't exist. There are no country-specific bans for 
Iran, Syria, Sudan or Cuba--the countries currently listed as state 
sponsors of terrorism. Nor is there a ban for rogue nations like North 
Korea.
    That's because our immigration laws provide plenty of authority to 
prevent the travel of individuals who pose a danger to the U.S. and its 
interests.
    Our immigration laws already require the denial of visas to persons 
with suspected ties to terrorism, as well as anyone who is otherwise 
suspected of posing a threat to national security.
    Our immigration laws also require consular officials to deny visas 
for an individual whose travel raises significant foreign policy 
concerns. The same is true for any individual suspected of potentially 
violating the terms of their visa or admission to the United States.
    Over the years, including after the attacks of September 11, 2001, 
this country has not seen fit to erect more country-specific 
restrictions like the Libyan visa ban. Instead, the U.S. moved in a 
different direction--erecting bans that actually focused on whether 
admission of a particular individual was helpful or harmful to U.S. 
interests.
    In other words, we adopted policies that allowed us to let in or 
friends and keep out our enemies, rather than barring them all.
    Doesn't that just make more sense?
    But sense is rarely what congressional hearings are about these 
days. I'm afraid all we will see today are scare tactics and political 
attacks to try and hurt the administration.
    I thank the witnesses for joining us today and I yield back the 
balance of my time.

                                <F-dash>

Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary
    On February 1, 2010, then-Assistant Secretary of State for the 
Bureau for Near Eastern Affairs, Jeffrey Feltman, requested ending the 
longstanding prohibition against Libyans entering the United States to 
work in aviation maintenance, flight operations, or to study or train 
in nuclear-related fields.
    Shortly thereafter, widespread unrest in Libya precluded the U.S. 
Government from engagement with Libya. The post-Arab Spring civil war 
in Libya led to the fall of the Qadhafi regime in August 2011, and 
Qadhafi was captured and then killed by rebel forces in October 2011. 
Following the revolution, the Obama Administration once again began the 
process of ``normalizing'' relations with that country.
    Yet, on September 11, 2012, U.S. Ambassador John Christopher 
Stevens and three other State Department officials were killed when 
terrorists stormed the U.S. Consulate in Benghazi, Libya and set it 
ablaze.
    A statement by U.S. State Department spokeswoman Victoria Nuland 
said the United States condemned the attack ``in the strongest terms'' 
and was working with Libyan security forces to secure the compound. 
President Obama called the attack in Benghazi ``outrageous and 
shocking,'' and vowed its perpetrators will face justice. ``I've also 
directed my administration to increase our security at diplomatic posts 
around the world,'' Obama said. ``And make no mistake--we will work 
with the Libyan government to bring to justice the killers who attacked 
our people.'' To date no one has been brought to justice for these 
attacks.
    Instead and despite these attacks, on May 31, 2012, Feltman, along 
with Joseph McMillan, Acting Assistant Secretary of Defense for 
International Security Affairs, again asked DHS to end the prohibition, 
stating the ``outdated regulation does not reflect current U.S. 
Government policy towards Libya''. Unbelievably, the letter makes no 
mention of the attacks, acting as if they had never occurred.
    Rather, as outlined in a February 12, 2013 memo from Alan Bersin 
signed by Secretary Napolitano: ``According to the U.S. Embassy in 
Tripoli, there is a robust plan in place to encourage engagement and 
educational exchanges in coming years with the Libyan government. DOD 
is attempting to initiate a program of aircraft sales, pilot training, 
and ground crew training early this year worth $2 billion, the 
contracts for which would go to other countries if training could not 
be conducted in the United States. The Departments of Defense and State 
have made it clear that absent its rescission, the [regulation] will 
significantly hamper these efforts.'' On April 1, 2014, just two days 
before this hearing, DOD reiterated its desire to see the regulation 
lifted to Mr. Bersin.
    The memo from Mr. Bersin also fails to mention the attack in 
Benghazi--the first time an ambassador for the United States had been 
killed since 1979. The long-standing prohibition on Libyans was put in 
place to protect the homeland against serious threats from terrorists 
from a particularly unstable and dangerous country. The Obama 
Administration argues that it is no longer needed.
    However, many of the characteristics regarding Libya that caused 
the regulation to be put in place persist today. Regardless of any 
progress that may have been made following the removal of Muammar 
Qadhafi from power, many extremist and terrorist groups operate 
unfettered in Libya.
    Two weeks ago, Libya acknowledged for the first time that 
``terrorist groups'' were behind dozens of attacks against security 
services. And on March 20th, Libya's government called for 
international help to fight terrorism that is threatening internal 
stability in the country. That same day, a missile was launched at the 
Tripoli Airport.
    Four 9/11 hijacker pilots obtained their expertise in aviation 
primarily at U.S. flight schools. Do we want to risk Libyan terrorists 
learning how to fly airplanes in the U.S.? Given the desire of radical 
regimes and terrorists to obtain or build nuclear weapons or dirty 
bombs, do we want to possibly train Libyan terrorists in nuclear 
engineering? If the prohibition is lifted, not only can Libyans 
supposedly vetted by the administration receive this training, but any 
Libyan can seek to do so.
    Ultimately, it does not appear that national security has been 
adequately considered in the effort to end the prohibition. It is 
uncertain whether our immigration system has sufficient integrity to 
ferret out applicants' long term motivations for receiving an education 
in sensitive topics from the United States.
    As a final note, we have long been seeking information from DHS 
regarding the status of the rescission of the regulation and the role 
of the White House. We only received answers to some of the questions 
we asked after this hearing was announced. It is troubling that it 
takes such actions by the Committees to receive information from DHS 
that is vital for us to fulfill our legitimate oversight role.

                                 [all]

</pre></body></html>
